                      Offices of the Inspectors General
             Departments of Commerce, Defense, Energy, and State
Report No. D-2001-092                                                  March 23, 2001

            Interagency Review of the Commerce Control List
                       and the U.S. Munitions List

                                Executive Summary

Introduction. In August 1998, the Chairman of the Senate Committee on Governmental
Affairs requested that the Inspectors General from the Departments of Commerce,
Defense, Energy, State, and the Treasury and the Central Intelligence Agency conduct an
interagency review of the export licensing processes for dual-use commodities and
munitions. The objective of the review was to determine whether current practices and
procedures were consistent with national security and foreign policy objectives. An
interagency Offices of the Inspectors General (OIG) Report No. 99-187, “Interagency
Review of the Export Licensing Processes for Dual-Use Commodities and Munitions,”
was issued in June 1999.

Public Law 106-65, National Defense Authorization Act for Fiscal Year 2000,
section 1402, “Annual Report on Transfer of Militarily Sensitive Technologies to
Countries and Entities of Concern,” October 5, 1999, required the President to submit an
annual report to Congress, beginning in the year 2000 and ending in the year 2007, on
the transfer of militarily sensitive technology to countries and entities of concern. The
National Defense Authorization Act further required that the Inspectors General of the
Departments of Commerce (Commerce), Defense (Defense), Energy (Energy), and State
(State), in consultation with the Director, Central Intelligence Agency, and the Director,
Federal Bureau of Investigation, conduct an annual review of policies and procedures of
the U.S. Government with respect to their adequacy to prevent export of sensitive
technologies and technical information to countries and entities of concern. An
amendment to section 1402(b), found in section 1075 of the National Defense
Authorization Act for FY 2001, further requires the Inspectors General to include in
their annual report the status or disposition of recommendations that have been set forth
in previous annual reports under section 1402.

To comply with the first-year requirement of the National Defense Authorization Act, the
OIGs conducted an interagency review of Federal agency compliance with the deemed
export licensing requirements contained in the Export Administration Regulations and the
International Traffic in Arms Regulations. To comply with the second-year requirement
of the National Defense Authorization Act, the OIGs conducted an interagency review to
assess policies and procedures for developing, maintaining, and revising the Commerce
Control List (CCL) and the U.S. Munitions List (USML).
Background. The United States controls the export of certain goods and technologies
for national security, foreign policy, or nonproliferation reasons under the authority of
several different laws. The Export Administration Act of 1979, as amended, is the
primary legislative authority for controlling the export of dual-use commodities,1 whereas
the export of goods and technologies that have only military use is controlled under the
authority of the Arms Export Control Act. The Government publishes two lists, the
CCL and USML, which identify the goods and technologies that are subject to export
controls. Exporters use the CCL, which is managed by the Commerce Bureau of Export
Administration, to determine what dual-use commodities are subject to control. For
munitions, exporters refer to the USML, which is managed by State’s Office of Defense
Trade Controls.

Objectives. Our overall objective was to assess policies and procedures for developing,
maintaining, and revising the CCL and USML. In addition, Commerce, Defense, and
State OIGs assessed whether a need exists for more transparency in the commodity
jurisdiction process. Commerce and Defense OIGs also assessed whether a need still
exists for greater transparency in the commodity classification process.

Review Results.

        Review of the Commerce Control List. The Commerce and Defense OIGs
reported that improvements could be made in how the CCL is developed, maintained,
and revised. Specifically, the Commerce OIG was concerned about the clarity and
user-friendliness of the CCL. Because of those concerns, exporters may make errors in
determining whether their item is controlled by the CCL and, as such, may either apply
for a license when one is not required or not apply when a license is required. In
maintaining the CCL, the Commerce OIG found that some items included in four Export
Control Classification Numbers are controlled on the CCL for national security reasons,
but are no longer controlled by the Wassenaar Arrangement on Export Controls for
Conventional Arms and Dual-Use Goods and Technologies. The Defense OIG reported
that enhancements are needed to improve the review of unilaterally controlled items on
the CCL and the review of countries listed on the Commerce Country Chart. Further,
the Commerce OIG found that changes resulting from the multilateral plenary2 sessions
are not always reflected in the list in a timely manner. As a result of those problems,
items may be subjected to tighter or more lenient controls than the Export Administration
Act allows. The Energy OIG concluded that Energy, which has a minor role in
developing, maintaining, and revising the CCL and USML, is providing appropriate
support to the development and review of the Nuclear Referral List,3 a subset of the
CCL. The process appears to be working appropriately and no concerns have been
raised by other agencies regarding Energy’s role.

1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both
    civilian and military use.
2
    Plenary sessions are the annual and/or semiannual meetings of the various multilateral regimes fully
    attended by all qualified members.
3
    The Nuclear Nonproliferation Act of 1978, Section 309 (c) states that “The President shall publish
    procedures regarding control by the Department of Commerce over all export items, other than those
    licensed by the Commission [Nuclear Regulatory Commission], which could be, if used for purposes
    other than those for which the export is intended, of significance for nuclear explosive purposes.” The
    Act also states that the Secretaries of Commerce and Energy are both responsible and must agree to
    changes in control procedures in consultation with other agencies. The Nuclear Referral List consists of
    those items on the CCL controlled for nuclear nonproliferation concerns.
                                                        ii
Review of the U.S. Munitions List. The Defense and State OIGs found that the Office
of Defense Trade Controls had not performed a comprehensive review of the USML
since 1993. The Commerce OIG found that most users believed that the USML is not as
easy to understand and use as the CCL. In an effort to improve export controls, in
May 2000 a series of Defense Trade Security Initiatives was announced by the Secretary
of State. One of those initiatives, number 17, “Periodic Reviews of the USML,”
requires that the Defense Threat Reduction Agency and State’s Office Defense Trade
Controls review the USML to ensure clarity and appropriateness. To comply with the
initiative, the Defense Threat Reduction Agency has scheduled a review of 5 of the
19 active USML categories to be completed in May 2001. To help improve the
user-friendliness of the USML, the Defense Threat Reduction Agency is supposed to
help ensure that USML categories reflect the technologies considered significant in the
list of militarily critical technologies and clarify USML language to ensure that users of
the list can easily identify the items requiring export licenses. However, the Defense
OIG found that critical parameters for the military technologies listed in the list of
militarily critical technologies, a list developed to be a guide for export controls, may be
outdated and that developing technologies with potential military applications may not
have been identified on the list. The Defense and State OIGs jointly concluded that
periodic reviews of the USML required by the Defense Trade Security Initiatives are
needed and should continue into the future.

        Commodity Jurisdiction Process. The Commerce, Defense and State OIGs
found that their respective agencies did not comply with mandatory timeframes set forth
in National Security Council guidance for processing commodity jurisdiction requests.
Exporters unsure as to whether an item is on the USML can request a commodity
jurisdiction determination from the Office of Defense Trade Controls to rule on the
export licensing jurisdiction for the item. The commodity jurisdiction process can also
be used to consider moving an item currently covered by the USML to the CCL.
Specifically, the Bureau of Export Administration and the Defense Threat Reduction
Agency did not comply with the timeframes to respond to the Office of Defense Trade
Controls on commodity jurisdiction referrals because of competing priorities and limited
resources and because the Office of Defense Trade Controls did not impose or enforce
any deadlines. When the Office of Defense Trade Controls received the referrals from
the Bureau of Export Administration and the Defense Threat Reduction Agency, it was
also not timely in making its final commodity jurisdiction determinations because of
resource constraints and competing priorities. As a result, all three agencies contributed
to commodity jurisdiction determinations being made to exporters in an untimely
manner—a situation that can cause delays or cancellations in shipments and uncertainty in
the business community regarding the export control jurisdiction of certain items. The
Commerce and State OIGs also identified problems associated with commodity
jurisdiction cases being processed and tracked manually. Specifically, the manual system
for processing commodity jurisdiction determination requests can be unreliable and does
not lend itself to providing transparency and accountability for the commodity
jurisdiction process. This situation increases the risk that documents can be lost,
misplaced, or misdirected, resulting in unnecessary delays.

      Unresolved Jurisdictional Issues. The Commerce and State OIGs noted a
breakdown in the interagency process for resolving jurisdictional disputes for night vision
equipment and space qualified items.4 With regard to night vision equipment, the
4
    According to the Export Administration Regulations, the term “space qualified” refers to products
    designed, manufactured, and tested to meet the special electrical, mechanical, or environmental
    requirements for use in the launch and deployment of satellites or high-altitude flight systems operating at
    altitudes of 100 km or higher.
                                                        iii
Commerce and State OIGs noted ongoing disagreements about whether such equipment
should be licensed by the Bureau of Export Administration or by the Office of Defense
Trade Controls. Because of the inability of the licensing agencies to resolve the dispute,
license applications are being delayed and exporters are confused about which agency
they should apply to for a license for those goods. In addition, the U.S. Government has
not been able to make a decision about which agency has jurisdiction for 16 categories of
space qualified items currently controlled under the CCL. As a result, the National
Security Council initiated a review to determine which Federal agency should have
jurisdiction for the 16 space qualified items and was expected to rule in April 2000.
However, as of March 2001, no decision has been made. Finally, the Commerce and
State OIGs determined that the lack of formal policies and procedures in the Government
jurisdiction process has led to confusion among both licensing agencies and exporters.

         Commodity Classification Process. The Commerce and Defense OIGs reported
that the commodity classification process was not transparent because the Bureau of
Export Administration may not be referring munitions-related commodity classifications
to the Defense Threat Reduction Agency and the Office of Defense Trade Controls. The
failure of the Bureau of Export Administration to refer such commodity classifications to
the other licensing agencies, as called for in guidance issued by the National Security
Council in 1996, leaves the Bureau of Export Administration vulnerable to incorrect
classifications. That finding was also reported as part of the 1999 interagency OIG
export licensing review. While concurring with the 1999 Commerce OIG
recommendation to work with the National Security Council to develop specific criteria
and procedures for the referral of munitions-related commodity classifications to the
Defense Threat Reduction Agency and the Office of Defense Trade Controls, the Bureau
of Export Administration has taken no action to correct the problems because it maintains
that it is currently in compliance with the National Security Council guidance. In
addition, during the current review, the Commerce OIG found that the Bureau of Export
Administration was not providing the Office of Defense Trade Controls with a copy of
the final commodity classification determinations for any commodity classifications
reviewed.

        Followup to Prior Interagency Review. Appendix B contains the current status
of the recommendations made by each agency as required by the amendment to
section 1402 of the National Defense Authorization Act for FY 2001.
Recommendations, Agency Comments, and OIG Responses. The participating OIGs
made specific recommendations relevant to their own agencies. Recommendations,
agency comments, and OIG responses are included in the separate reports issued by each
office, which are in Appendix C (Commerce), Appendix D (Defense), Appendix E
(Energy), and Appendix F (State). Because of time constraints, agency managers were
not asked to respond to this interagency report. Agency comments discussed in this
report are those provided in response to the individual reports of the participating OIGs.




                                            iv
Table of Contents

Executive Summary                                  i


Introduction
     Introduction                                  1
     Background                                    2
     Objectives                                    5

Review Results
     A.   Review of the Commerce Control List      6
     B.   Review of the U.S. Munitions List       11
     C.   Commodity Jurisdiction Process          15
     D.   Export License Jurisdictional Issues    22
     E.   Commodity Classification Process        26

Appendixes
     A. Review Process
         Scope                                    31
         Methodology                              31
     B. Followup to Prior Interagency Review      33
     C. Department of Commerce Report            C-1
     D. Department of Defense Report             D-1
     E. Department of Energy Report              E-1
     F. Department of State Report               F-1
Acronyms
BXA        Bureau of Export Administration, Department of Commerce
CCL        Commerce Control List
CJ         Commodity Jurisdiction
DTC        Office of Defense Trade Controls, Department of State
DTRA       Defense Threat Reduction Agency, Department of Defense
ECCN       Export Control Classification Number
OIGs       Offices of the Inspectors General
USML       United States Munitions List
Introduction
    In August 1998, the Chairman of the Senate Committee on Governmental Affairs
    requested that the Inspectors General from the Departments of Commerce,
    Defense, Energy, State, and the Treasury and the Central Intelligence Agency
    conduct an interagency review of the export licensing processes for dual-use
    commodities and munitions. The objective of the review was to determine
    whether current practices and procedures were consistent with national security
    and foreign policy objectives. An interagency Offices of the Inspectors
    General (OIG) Report No. 99-187, “Interagency Review of the Export Licensing
    Processes for Dual-Use Commodities and Munitions,” was issued in June 1999.

    Public Law 106-65, National Defense Authorization Act for Fiscal Year 2000,
    section 1402, “Annual Report on Transfer of Militarily Sensitive Technologies to
    Countries and Entities of Concern,” October 5, 1999, required the President to
    submit an annual report to Congress, beginning in the year 2000 and ending in
    the year 2007, on the transfer of militarily sensitive technology to countries and
    entities of concern. The National Defense Authorization Act further required that
    the Inspectors General of the Departments of Commerce (Commerce), Defense
    (Defense), Energy (Energy), and State (State), in consultation with the Director,
    Central Intelligence Agency, and the Director, Federal Bureau of Investigation,
    conduct an annual review of policies and procedures of the U.S. Government
    with respect to their adequacy to prevent export of sensitive technologies and
    technical information to countries and entities of concern. An amendment to
    section 1402(b), found in section 1075 of the National Defense Authorization Act
    for FY 2001, further requires the Inspectors General to include in their annual
    report the status or disposition of recommendations that have been set forth in
    previous annual reports under this section.

    To comply with the first-year requirement of the Act, the OIGs conducted an
    interagency review of Federal agency compliance with the deemed export
    licensing requirements contained in the Export Administration Regulations and
    the International Traffic in Arms Regulations. Two interagency reports,
    “Interagency Review of the Export Licensing Process for Foreign National
    Visitors” and “Interagency Inspector General Assessment of Measures to Protect
    Against the Illicit Transfer of Sensitive Technology,” were issued in March 2000.
    To comply with the second-year requirement of the National Defense
    Authorization Act, the OIGs conducted an interagency review to assess policies
    and procedures for developing, maintaining, and revising the Commerce Control
    List (CCL) and United States Munitions List (USML).




                                        1
Background
            The United States controls the export of certain goods and technologies for
            national security, foreign policy, or nonproliferation reasons under the authority
            of several different laws. The primary legislative authority for controlling the
            export of dual-use commodities1 is the Export Administration Act of 1979, as
            amended (Title 50, United States Code, Appendix 2401). The export of goods
            and technologies that have military use is controlled under the authority of the
            Arms Export Control Act (Title 22, United States Code, section 2751). Finally,
            the export of nuclear dual-use commodities is controlled by the Nuclear
            Nonproliferation Act of 1978 (Title 22, United States Code, section 3201).

            Commerce Control List. Commerce’s Bureau of Export Administration (BXA)
            controls the export of dual-use commodities using the authority provided in the
            Export Administration Act. BXA develops export control policies, issues export
            licenses, and enforces the laws and regulations for dual-use exports, including the
            Export Administration Regulations. The CCL, contained within the Export
            Administration Regulations, lists items (commodities, software, and technology)
            subject to the export licensing authority of BXA.

            The CCL is organized by Export Control Classification Number (ECCN). Of the
            472 ECCNs listed on the CCL, 137 are controlled unilaterally by the United
            States. The remaining 339 ECCNs2 on the CCL are controlled in cooperation
            with other countries through various multilateral regimes (see Figure 1 for a
            breakdown of the source of ECCNs on the CCL). Items may be unilaterally
            controlled because they are in short supply,3 not readily available from any other
            country, or because the United States does not want to export the items for
            foreign policy reasons.




1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both
    civilian and military uses. The U.S. Government designates some dual-use commodities as “nuclear
    dual-use” items, which are controlled for nuclear nonproliferation purposes.
2
    Of the 339 ECCNs, 4 are also controlled for unilateral reasons. Thus, 339 ECCNs controlled
    multilaterally, plus 137 ECCNs controlled unilaterally, will not total to 472.
3
    Short supply controls are detailed in Section 7 of the Export Administration Act. To protect the domestic
    economy from an excessive drain of scarce materials and reduce the impact of foreign demand, “the
    President may prohibit or curtail the export of any goods subject to the jurisdiction of the United States or
    exported by any person subject to the jurisdiction of the United States.”

                                                         2
                            Figure 1. Sources of ECCNs on the CCL*

                                          16 2
                  97
                                                                              158




          109

                                                               137

          Wassenaar Arrangement**                 Chemical Weapons Convention Treaty
          Missile Technology Control Regime       Nuclear Suppliers Group
          Australia Group                         Unilateral


  *Totals more than 472 because some ECCNs may be controlled by more than one
   regime.
 **Includes both the Wassenaar Arrangement Dual-Use and Munitions List
   Sources: Commerce and Defense OIG Analysis of the October 2000 CCL



The United States is a member of several multilateral regimes concerned with the
export of dual-use and munitions items to countries of concern. Those
organizations include the Australia Group, the Chemical Weapons Convention,
the Missile Technology Control Regime, the Nuclear Suppliers Group, and the
Wassenaar Arrangement on Export Controls for Conventional Arms and
Dual-Use Goods and Technologies (Wassenaar Arrangement).

The Australia Group is an informal forum of 32 industrialized nations that
cooperate in curbing the proliferation of chemical and biological weapons through
coordination of export controls, exchange of information, and other diplomatic
actions. The Chemical Weapons Convention has 141 signatories to its treaty that
bans the entire class of chemical weapons. Membership of the Missile
Technology Control Regime totals 32 nations, with the objective to limit
proliferation of missiles capable of delivering weapons of mass destruction. The
Nuclear Suppliers Group, which has 39 member nations, sets controls on nuclear
material, equipment, and technology unique to the nuclear industry and on
dual-use items that have both nuclear and non-nuclear commercial and military
applications. The Wassenaar Arrangement has 33 member nations and is
designed to respond to the new security threats of the post-Cold War era. The
purpose of Wassenaar Arrangement is to contribute to regional and international
security and stability by promoting transparency and greater responsibility in the
transfer of conventional arms and dual-use goods and technologies, such as
computers, machine tools, and satellites.
                                              3
            U.S. Munitions List. The Arms Export Control Act authorizes the President to
            control the export of defense-related articles and services. In Executive
            Order 11958, “Administration of Arms Export Controls,” January 18, 1977, the
            President delegated responsibility for administering export functions associated
            with the Arms Export Control Act to the Secretary of State. Within State, that
            function is delegated to the Bureau of Political-Military Affairs, Office of Defense
            Trade Controls (DTC). That office carries out its responsibilities by registering
            persons or companies involved in defense trade, approving or denying export
            licenses, and ensuring compliance with the Arms Export Control Act and other
            applicable laws and regulations.

            DTC is also responsible for creating and maintaining the USML, which is
            contained within the International Traffic in Arms Regulations, 22 Code of
            Federal Regulations, part 120. The USML identifies those items, technologies,
            and services inherently military in character and that could, if exported,
            jeopardize the national security or foreign policy interests of the United States.
            The USML specifies defense articles, services, and related technical data that
            may be exported as well as the conditions under which munitions may be
            exported. The USML consists of 21 categories. Two of those categories are,
            however, reserved for future use.

            Defense Role in the CCL and USML. The Defense Threat Reduction
            Agency (DTRA), Technology Security Directorate, is the Defense component that
            BXA and DTC consult with when revising or updating the CCL or USML.
            DTRA also reviews commodity classification and commodity jurisdiction cases
            referred to it by BXA and DTC. DTRA serves as the Defense agent for
            implementation of Defense technology security policies established by the Under
            Secretary of Defense for Policy and the Deputy Under Secretary of Defense
            (Technology Security Policy) on international transfers of defense-related goods,
            services, technologies and munitions, consistent with DoD Directive 2040.2,
            “International Transfers of Technology, Goods, Services, and Munitions,”
            January 17, 1984.

            Energy Role in the CCL and USML. Energy has a minor role in developing,
            maintaining, and revising the CCL and the USML. Within Energy, the Office of
            Nuclear Transfer and Supplier Policy plays a significant role in the formulation of
            U.S. nuclear proliferation and export control policies, and conducts export license
            review activities for dual-use and munitions commodities. The Office of Nuclear
            Transfer and Supplier Policy participates with BXA in the identification and
            review of nuclear dual-use commodities listed on the Nuclear Referral List.4
            Officials within the Office of Nuclear Transfer and Supplier Policy said that they
            have not been involved in any changes to the USML.

4
    The Nuclear Nonproliferation Act of 1978, Section 309 (c) states, “The President shall publish procedures
    regarding control by the Department of Commerce over all export items, other than those licensed by the
    Commission [Nuclear Regulatory Commission], which could be, if used for purposes other than those for
    which the export is intended, of significance for nuclear explosive purposes.” The Act also states that the
    Secretaries of Commerce and Energy are both responsible and must agree to changes in control
    procedures in consultation with other agencies. The Nuclear Referral List consists of those items on the
    CCL controlled for nuclear nonproliferation concerns.

                                                        4
Objectives
     Our overall objective was to assess the policies and procedures for developing,
     maintaining, and revising the CCL and USML. The Commerce, Defense, and
     State OIGs assessed whether there is a need for more transparency in the
     commodity jurisdiction process. In addition, Commerce and Defense OIGs also
     assessed whether a need still exists for greater transparency in the commodity
     classification process. See Appendix A for a discussion of scope and
     methodology of the reviews. See Appendix B for the status of recommendations
     from previous annual reports.




                                         5
                     A. Review of the Commerce Control List
                     The Commerce and Defense OIGs reported that improvements could be
                     made in how the CCL is developed, maintained, and revised.
                     Specifically, the Commerce OIG identified improvements that are needed
                     in the management of the CCL, including additional ways to make the list
                     more user-friendly. Without improvements, exporters may make errors in
                     determining whether their item is controlled by the CCL and as such, may
                     either apply for a license when one is not required or not apply when a
                     license is required. In maintaining the CCL, the Commerce OIG found
                     that some items included in four ECCNs are controlled on the CCL for
                     national security reasons, whereas foreign policy reasons would be more
                     appropriate because the items are no longer controlled by the Wassenaar
                     Arrangement. The Defense OIG reported that enhancements are needed
                     to improve the review of unilaterally controlled items on the CCL and
                     countries listed on the Commerce Country Chart.5 Further, in revising the
                     CCL, the Commerce OIG found that changes resulting from the
                     multilateral plenary sessions are not always reflected on the list in a timely
                     manner. As a result of those problems, items may be subjected to tighter
                     or more lenient controls than the Export Administration Act allows. The
                     Energy OIG concluded that Energy is providing appropriate support to the
                     development and review of the Nuclear Referral List, a subset of the
                     CCL.

Development of the Commerce Control List
            During its review, the Commerce OIG interviewed users of the CCL to determine
            how easy it was for them to use and apply the list to their potential exports. The
            Commerce OIG and the users noted that the CCL is easier to understand and use
            than the USML (as discussed in Finding B). However, the Commerce OIG and
            the users cited the following problems with the CCL.

                •    Approximately 45 items appear on both the CCL and the USML.

                •    Considerable confusion exists about the use of the ambiguous terms
                     “specialized” and “specially designed” for military applications in the
                     CCL.

                •    Some items controlled by multilateral regime dual-use lists are controlled
                     by the USML rather than the CCL. Although those items are included in
                     the CCL, the ECCNs direct the exporter to the USML to identify the
                     proper controls. Those “pointers” from the CCL to the USML are
                     sometimes unnecessarily confusing.

                •    Structure of the CCL could be modified to make it easier to navigate.

5
    The Commerce Country Chart, like the CCL, is maintained by BXA. The Commerce Country Chart
    helps the exporter, based on the reasons for control associated with their item, determine if a license is
    needed to export or reexport the item to a particular destination.

                                                         6
           The Commerce and Defense OIGs believe that the clearer the CCL is, the more
           likely an exporter will be able to comply with the export regulations and the less
           time BXA will have to spend on answering questions and rerouting license
           applications.

           The Commerce OIG recommended that BXA convene a working group of
           business and Government representatives to address problems with the CCL, as
           well as work with DTC and applicable congressional committees that are
           considering new legislation for dual-use exports to eliminate the overlap between
           the CCL and USML. The Commerce OIG also recommended that a user-friendly
           consolidated index of the items on the two lists be created. BXA generally agreed
           that the user-friendliness of the CCL should be improved. However, because
           BXA has found that past discussions with DTC on eliminating the overlap
           between the CCL and USML have consistently not been productive, BXA
           suggested revising the recommendation to request that the National Security
           Council chair the working group. The Commerce OIG disagreed and continues
           to believe that the working group should be managed at the agency level. BXA
           also stated that the agency would welcome the availability of a USML
           item-specific index or up-to-date which indices could be distributed with the CCL
           index.

Maintenance of the Commerce Control List
           Commerce Maintenance of the CCL. Dual-use goods and technologies
           controlled by the Wassenaar Arrangement are controlled for national security
           reasons on the CCL.6 However, the Commerce OIG found 14 items included
           under four ECCNs (0A018, 0E018, 1C018, and 8A018) are being controlled on
           the CCL for national security reasons, but are not controlled by the Wassenaar
           Arrangement. (See Table 2 in the Commerce OIG report at Appendix C, page 19
           for a full description of the national security controlled items on the CCL that
           Wassenaar Arrangement has decontrolled.) BXA generally does not have the
           authority, under the Export Administration Act of 1979, as amended, to
           unilaterally impose national security controls for those items. By doing so, BXA
           is requiring exporters to apply for a license when no national security controls
           were imposed on those items and a license may not have been required.

           The Commerce OIG recommended that BXA work with DTRA and DTC to
           determine (a) whether the national security controls for those items should be
           removed and (b) whether those items should continue to be controlled for foreign
           policy reasons under the CCL. BXA concurred with the recommendation and
           stated that the agency has attempted to initiate discussions with DTC to undertake
           the review and revision but has been unsuccessful. BXA asked that the
           Commerce OIG encourage DTC to participate in the effort.




6
    Some dual-use goods controlled by the Wassenaar Arrangement are under the licensing jurisdiction of
    State and are contained on the USML.

                                                      7
Defense Maintenance of the CCL. The Defense OIG identified that a valid
requirement for an export license may no longer exist for at least some of the
137 unilaterally controlled ECCNs on the CCL and some of the 196 countries for
which unilateral controls are applicable. The United States unilaterally controls
exports of 137 of the 472 ECCNs (29 percent) listed on the CCL to at least
196 countries. Because no review of those ECCNs or countries has been recently
conducted by DTRA, a requirement for an export license may no longer exist.

        Unilaterally Controlled Items. Unilaterally controlled ECCNs on the
CCL were not reviewed by Defense. DTRA officials did not require reviews of
export controls placed on ECCNs because of foreign policy and short supply
concerns. The 137 ECCNs unilaterally controlled on the CCL were controlled
because of foreign policy and short supply concerns as defined by the Export
Administration Regulations. The majority of those ECCNs were controlled
because of the potential terrorist threat that the items pose. The unilaterally
imposed controls could benefit from DTRA expertise in a review of foreign
policy controlled ECCNs on the CCL. BXA has not required or scheduled
periodic DTRA reviews of unilaterally controlled ECCNs. Because the Export
Administration Act requires DTRA concurrence for only the control of items
based on national security concerns and because unilaterally controlled items are
controlled based on foreign policy and short supply concerns, no Defense
requirement existed for a review of unilaterally controlled ECCNs.

The Defense OIG recommended that DTRA establish a process for working with
BXA to facilitate periodic interagency reviews of the CCL. The Defense OIG
also recommended that DTRA work with BXA to determine if any of the ECCNs
currently controlled by the United States should be removed from the CCL.
DTRA concurred with the recommendations.

       Commerce Country Chart. Countries for which unilateral controls are
applicable were not reviewed because DTRA officials were not required to review
export controls placed on ECCNs, due to foreign policy and short supply
concerns. The 196 countries for which crime controls and nuclear
nonproliferation controls were applicable were controlled because of foreign
policy concerns. The countries affected by foreign policy controls, especially
crime control and nuclear nonproliferation, could also benefit from a DTRA
review of the Commerce Country Chart.

The Defense OIG recommended that DTRA work with BXA to determine if any
of the countries to which controls apply should be removed from the Commerce
Country Chart. DTRA concurred with the recommendation.

Energy Maintenance of the CCL. The Energy OIG found that Energy’s Office
of Nuclear Transfer and Supplier Policy participates, along with BXA, in
identification and review of nuclear dual-use commodities on the CCL. The
nuclear dual-use commodities comprise the Nuclear Referral List. Officials from
Energy’s Office of Nuclear Transfer and Supplier Policy stated that they follow
an informal process within Energy to review proposed changes to the Nuclear
Referral List. BXA provides Energy a copy of the proposed changes by e-mail
and follows up with a paper copy. Office of Nuclear Transfer and Supplier
Policy export control analysts seek technical assistance as needed from Energy
                                     8
            laboratories to develop recommendations regarding proposed changes to the
            Nuclear Referral List. The Energy OIG found that the mix of participants in
            Energy’s review process provides comprehensive coverage of all aspects of
            nuclear fuels cycle and nuclear weapons technologies, as well as coverage of
            nuclear export control and licensing issues. The process appears to be working
            appropriately and no concerns have been raised by other agencies regarding the
            Department of Energy’s role.

Revision of the Commerce Control List
            Commerce OIG found that improvements can be made in the timeliness of
            revisions to the CCL. Each year, the U.S. Government sends representatives
            from BXA, DTRA, Energy (as appropriate), and various offices from State to the
            plenary sessions7 of the various multilateral regimes to discuss a number of export
            control issues, including changes to the multilateral control lists. Upon returning
            from the plenary sessions, BXA is responsible for administering any changes to
            the CCL as a result of the changes made to the multilateral control lists at the
            plenary sessions. While there are no specified timeframes for how long this
            process should take, the Commerce OIG found that the process can take
            anywhere from 6 months to more than a year for the CCL to be updated with
            agreed-upon multilateral changes. For example, changes agreed to at both the
            May 1999 Nuclear Suppliers Group plenary session and the October 1999 Missile
            Technology Control Regime plenary session have still not been implemented by
            the United States. In the case of those two plenary sessions, the changes have not
            been made because of problems with BXA internal procedures for implementing
            agreed-upon multilateral controls. The Commerce OIG also found some
            timeliness problems associated with the DTRA review of proposed multilateral
            changes to the CCL. In several cases, including the changes agreed upon by
            participants at the December 1999 Wassenaar Arrangement plenary session,
            DTRA took 3 months to review the changes, whereas State took less than
            1 month.

            Delays in updating the CCL could cause problems for the U.S. Government and
            U.S. exporters. For example, if additional goods and technologies are added to
            one of the multilateral control lists, the United States will not be able to
            adequately monitor those items until added to the CCL. Conversely,
            U.S. exporters may face an undue burden of applying for license applications for
            items that the multilateral regimes have agreed to decontrol. The Commerce OIG
            believes that as a participating member in the multilateral control regimes, the
            U.S. Government has an obligation to implement the decisions made by the
            regimes in a “reasonable” time period. Not implementing agreed-upon
            multilateral changes in a timely manner could be perceived as a lack of
            commitment on the part of the United States to adhere to the policies of the
            multilateral control regimes.



7
    Plenary sessions are the annual and/or semiannual meetings of the various multilateral regimes fully
    attended by all qualified members.

                                                        9
The Commerce OIG recommended that BXA review its own clearance process
and procedures and work with the other licensing agencies, including DTRA,
Energy, and DTC to determine if the current process for updating the CCL could
be adjusted to publish regulations more expeditiously. In addition, the Commerce
OIG recommended that BXA immediately implement the regulatory changes that
resulted from the May 1999 Nuclear Suppliers Group plenary session and the
October 1999 Missile Technology Control Regime plenary session. BXA
concurred with the recommendation to review its internal regulatory review
process and supported efforts to expedite the interagency regulatory review
process. BXA indicated that it has begun a weekly regulations priority meeting to
discuss the status of all pending regulations and to work to make changes in a
more timely manner. With regard to implementing the regulatory changes
resulting from the May 1999 Nuclear Suppliers Group plenary session and the
October 1999 Missile Technology Control Regime plenary session, BXA stated
that the effort was in process.




                                   10
                    B. Review of the U.S. Munitions List
                    The Defense and State OIGs reported that DTC had not performed a
                    comprehensive review of the USML since 1993. The Commerce OIG
                    reported that many users said that the USML is not as easy to understand
                    and use as the CCL. In an effort to improve export controls, in May 2000
                    a series of Defense Trade Security Initiatives was announced by the
                    Secretary of State. One of those initiatives, number 17, “Periodic
                    Reviews of the USML,” requires that DTRA and DTC review the USML
                    to ensure clarity and appropriateness. To comply with the initiative,
                    DTRA has scheduled a review of 5 of the 19 active USML categories to
                    be completed in May 2001. To help improve the user-friendliness of the
                    USML, DTRA has indicated that it will ensure that USML categories
                    reflect the technologies considered significant on the list of militarily
                    critical technologies and clarify USML language to ensure that users of the
                    list can easily identify the items requiring export licenses. However, the
                    Defense OIG identified that critical parameters for the military
                    technologies listed in the list of militarily critical technologies8 may be
                    outdated and that developing technologies with potential military
                    applications may not have been identified on the list. The Defense and
                    State OIGs jointly concluded that periodic reviews of the USML required
                    by the Defense Trade Security Initiatives are needed and should continue
                    into the future.

U.S. Munitions List Review
            Developing, Maintaining, and Revising the U.S. Munitions List. In its
            review, the Commerce OIG asked users of the USML and CCL how easy it was
            for them to use and apply the list to their potential exports. The Commerce OIG
            reported that most users that it contacted found that the USML was more difficult
            to use than the CCL, mainly because the USML tends to be a “negative” list,
            meaning that items do not have to be explicitly listed to be covered by the list.
            Conversely, the CCL is structured as a “positive” list, meaning that if an item is
            not explicitly listed, then it is not covered.

            The State OIG found that since 1993, there were very few revisions to the
            USML. The State OIG reported that DTC does not have a mechanism for
            periodic reviews of the USML and for determining whether commodities that are
            controlled still merit inclusion on the USML. DTC officials last performed a
            comprehensive “scrub” of the USML at the end of 1993 at the direction of the
            President. DTC officials stated that changes to the USML occur infrequently
            because of the military nature of the commodities controlled by the USML. In
            addition, DTC cannot unilaterally recommend placing items on the USML
            because the office neither develops militarily sensitive technology nor has the
            technical capability to make such decisions. Although the Defense research labs
            could recommend that a new technology the lab developed be added to the

8
    A list developed and maintained by DTRA to be a guide for export controls. The list is a significant tool
    for updating and identifying militarily critical technologies.

                                                       11
           USML, that is rare and usually accomplished through the militarily critical
           technologies program. Substantive changes to the USML are usually made
           through Congress and executive orders. For example, the most recent addition to
           the USML was made when Congress gave export-licensing authority for the
           satellite category to DTC (from BXA) in March 1999. All changes to the USML
           are reported in the Federal Register, and DTC must submit a report to Congress
           at least 30 days before any item is removed from the USML.

           Defense Trade Security Initiative Number 17. In May 2000, a series of
           Defense Trade Security Initiatives was announced by the Secretary of State. The
           objectives of the initiatives are to improve export controls. Defense Trade
           Security Initiative number 17, “Periodic Review of the USML,” requires DTC
           and DTRA to establish a schedule for reviewing portions of the USML with a
           view toward refining USML categories to ensure appropriateness and clarity.
           The 19 actively used categories of the USML are to be divided into four groups
           so that all of the categories would be reviewed every 4 years.

           In response to Defense Trade Security Initiative number 17, DTRA drafted a plan
           to review approximately one-quarter of the USML per year. The plan listed four
           outcomes or goals of the reviews.

                    1. Identification of USML items that are more appropriately controlled by
                       the CCL.

                    2. Identification of items for which export controls are no longer
                       appropriate.9

                    3. Identification of additions to the USML, primarily because of new
                       technological developments.

                    4. Clarification of USML language to ensure that users of the list can
                       easily identify the items requiring export licenses.

           According to DTRA officials, the plan was discussed with senior Commerce,
           Defense, National Security Council, and State officials on November 27, 2000.
           DTRA officials also stated that the overall objectives of the effort would be to
           make the USML easier for users to identify specific items for which export
           licenses would be required and to ensure that the USML reflected the relevant
           critical technologies identified in the list of militarily critical technologies.

           The first review of five USML categories has begun and is scheduled to be
           completed by May 2001. The USML categories under review by the DTRA are:

                •   Category I - Firearms;

                •   Category V - Explosives, Propellants, Incendiary Agents and their
                    Constituents;

9
    Continued controls under Treasury Office of Foreign Asset Control regulations to terrorist and embargoed
    destinations may be required for any items removed.

                                                      12
        •   Category VIII - Aircraft and Associated Equipment;

        •   Category XIV - Toxicological Agents and Equipment and Radiological
            Equipment; and

        •   Category XVI – Nuclear Weapons, Design and Test Equipment.

     After developing its specific recommendations pertaining to the USML, DTRA
     will consult with DTC about the findings. DTC will consider the DTRA
     recommendations and make a final determination as to whether changes to the
     USML are justified. The criteria for adding, deleting, or continuing to control
     items under the USML will be foreign policy considerations and national security
     interests. Items that DTC and DTRA agree to remove from the USML must be
     approved by the State Under Secretary for Arms Control and International
     Security, and Congress must be notified 30 days before a USML change.
     Industry will participate through the Defense Trade Advisory Group and the
     Federal Register rule-making process. BXA will be involved when DTC and
     DTRA agree that export controls of certain items should be moved from the
     USML to the CCL.

     Reviews of USML categories are being performed by Defense working groups
     being established for each category. An oversight group is being staffed by
     DTRA licensing and technology officials. A coordinating group is being staffed
     by principals from the Military Departments, as well as the Offices of the Under
     Secretary of Defense for Acquisition, Technology, and Logistics, and the Under
     Secretary of Defense for Policy. As of March 2001, the working groups had
     completed a draft revision of USML Category V, which was renamed “Energetic
     Materials and Related Substances.” Information pertaining to items in
     Category V has been reorganized under homogeneous subcategory headings and
     the names of new technology substances have been added. References to related
     export control regulations have also been added.

     The Defense and State OIGs jointly concluded that periodic reviews of USML
     should continue into the future. Since the last comprehensive review of USML in
     1993, rapid changes have taken place in international relations and the way
     business is conducted as well as technological advances that could result in the
     need for updates or revisions to the USML.

Review of the List of Militarily Critical Technologies
     The Defense OIG identified that critical parameters for military technologies
     listed in the list of militarily critical technologies, a list developed to be a guide
     for export controls, may be outdated and that developing technologies with
     potential military applications may not have been included on the list.




                                            13
        The Militarily Critical Technologies Program. The Export Administration Act
        assigns Defense responsibility for providing assessments of militarily critical
        technologies and equipment. The Militarily Critical Technologies Program
        produces the list. Use of technical working groups is essential to the ongoing
        analyses of militarily critical parameters10 provided by the Militarily Critical
        Technologies Program. Technical working groups include members from
        academia, other Federal agencies, industry, and Defense, including the Military
        Services. DTRA uses the technical working groups to update militarily critical
        parameters for technologies that have already been identified as militarily critical
        and to determine if military applications can be applied to technologies that will
        be developed in the future. However, management officials told the Defense OIG
        that they did not have the resources to hold meetings of all the technical working
        groups on a regular basis.

        Identification of New Militarily Critical Technologies. The list of militarily
        critical technologies was designed to be a technical reference for licensing and
        export control by Commerce, Defense, Energy, State, and U.S. Customs Service.
        The list of militarily critical technologies supports U.S. export control policy and
        provides rationale for additions and deletions on various export control lists. The
        Defense OIG identified that developing technologies that are militarily critical
        may not have been added to export control lists because meetings with academia
        and industry to identify new militarily critical technologies were minimal.

        The Defense OIG recommended that the Deputy Under Secretary of Defense
        (Technology Security Policy) establish goals and procedures for the Militarily
        Critical Technologies Program to include scheduled meetings of technical
        working groups to review the list of militarily critical technologies at regular
        intervals and that DTRA ensure that adequate funding and resources are
        available. The Deputy Under Secretary of Defense (Technology Security Policy)
        concurred with the recommendation.




10
 Militarily critical parameters represent capabilities of systems that result in military criticality. For
 example, a night vision device with a 10-foot range might not be militarily critical, but a night vision
 device with 1000 yards of range may be considered militarily critical.

                                                      14
           C. Commodity Jurisdiction Process
           Commerce, Defense, and State OIGs reported that their respective
           agencies did not comply with mandatory timeframes set forth in National
           Security Council guidance for processing commodity jurisdiction (CJ)
           requests. Specifically, BXA and DTRA did not comply with the
           timeframes to respond to DTC on CJ referrals because of competing
           priorities and limited resources and because DTC did not impose or
           enforce any deadlines. When DTC received the referrals from BXA and
           DTRA, DTC was not timely in making its final CJ determinations because
           of resource constraints and competing priorities. As a result, all three
           agencies contributed to untimely CJ determinations being made to
           exporters, which can cause delays or cancellations in shipments and
           uncertainty in the business community regarding the export control
           jurisdiction for certain items. The Commerce and State OIGs also
           identified problems associated with CJ cases being processed and tracked
           manually. Specifically, the manual system for processing
           CJ determination requests can be unreliable and does not lend itself to
           providing transparency and accountability for the CJ process. This
           situation increases the risk that documents can be lost, misplaced, or
           misdirected, resulting in unnecessary delays.

Commodity Jurisdiction Process and Guidance
    Commodity Jurisdiction Process. Items subject to the International Traffic in
    Arms Regulations are on the USML, which is under the licensing jurisdiction of
    DTC. Exporters unsure as to whether an item is on the USML can request a
    CJ determination from DTC to rule on the export-licensing jurisdiction for the
    item. The DTC response to the exporter will indicate whether the item is on the
    USML. If not on the list, then DTC may state that it may be covered by the
    CCL. The CJ process can also be used to consider moving an item currently
    covered by the USML to the CCL. Important to note is that CJ determinations
    only rule on proper licensing authority for items contained on the list and do not
    represent an approval to export. An exporter must still apply for an export
    license if one is required.

    As part of the CJ process, DTC is required to refer CJ determination requests to
    BXA and DTRA to obtain their opinions about the licensing jurisdiction for a
    particular item. BXA and DTRA use their engineering expertise and experience
    with dual-use and munitions items to assist DTC in making CJ determinations.
    Occasionally, CJ determination requests are also referred to Energy or other
    Federal agencies, such as the Federal Aviation Administration or the National
    Aeronautics and Space Administration.

    National Security Council Guidance. National Security Council memorandum,
    “Procedures On Commodity Jurisdiction and Commodity Classification,”
    April 15, 1996, directed DTC to refer all CJ requests to BXA and DTRA. In
    addition, the memorandum provided DTC an overall cumulative timeframe of
    95 calendar days to respond to exporters on CJ requests. Within the 95-day

                                        15
     timeframe, referral agencies, such as BXA and DTRA, were provided 35 days to
     respond to referrals. However, in extraordinary cases an additional 10 days may
     be requested in writing.

Timeliness of CJ Process
     In FY 2000, 220 CJ determination requests were initiated by DTC. Of those,
     DTC issued jurisdictional rulings for 103 requests, while 117 requests remained
     open. For the 103 CJ determinations made, 56 were found to be CCL items; 29
     were found to be USML items; 7 resulted in a split jurisdiction (both CCL and
     USML); 8 were returned without action to the exporter because the information
     provided was inadequate to make a determination; and 3 were withdrawn by the
     exporter. As shown in Figure 2, BXA, DTRA, and DTC were not timely in
     processing CJ determination requests during FY 2000.


                       Figure 2. CJ Determination Average Processing Time
                                 (Decisions Completed in FY 2000)

                 160
                                 117
                 120
                                                           76
          Days




                  80
                                                                              46

                  40
                              35                      35
                   0                                                     10
                           BXA                     DTRA                  DTC

                                   Decisions by DTC
                                   BXA Recommendations to DTC
                                   DTRA Recommendations to DTC
                                   National Security Council Required Timeframes

       Source: Office of Defense Trade Controls, Department of State




                                              16
Commerce Commodity Jurisdiction Review. Based on records provided by
DTC, the Commerce OIG found that BXA responded to DTC in 101 of the
103 CJ determinations (the other 2 had not been referred to Commerce)
completed during FY 2000. For those 101 CJ determinations, BXA took
117 calendar days on average to provide an opinion to DTC. According to BXA,
the primary responsibility of its licensing officers is to process export license
applications, which have mandated timeframes for completion under Executive
Order 12981, “Administration of Export Controls,” December 1995. As a result,
processing CJ determination requests was given a lower priority and completed as
time allowed.

The Commerce OIG found that delays in rendering prompt CJ determinations
could have a negative impact on U.S. exporters. For example, when an exporter
cannot get a timely response to a CJ request, shipments may be delayed or even
cancelled, thus having an economic impact on the exporter. Another potential
impact is that, while waiting for a CJ determination, an exporter may incorrectly
file for a license with an agency that does not have licensing jurisdiction for the
item.

The Commerce OIG recommended that BXA review its priorities and staffing
levels and make adjustments to improve its timeliness on CJ requests. BXA
agreed with the recommendation in principle but believes it to be unrealistic in
practice. BXA contends that only if staffing levels and related funding for
specific technical functions are increased can BXA improve its ability to meet the
deadlines for the processing of CJ requests. As a result, BXA stated that it
cannot consider implementing the recommendation unless it is coupled with a
recommendation to the requisite budget authorities in the Congress to provide the
necessary resources. The Commerce OIG believes that staffing levels are a
contributing factor to the inability of BXA to process CJ determination requests in
a timely manner. However, the Commerce OIG believes that if BXA needs
additional staff to meet deadlines for processing CJ requests and does not have the
resources to fund needed positions, it is incumbent upon the agency to justify that
need in its budget submissions.

Defense Commodity Jurisdiction Review. Based on records provided by
DTRA, the Defense OIG found that DTRA processed 215 CJ requests during
FY 2000. According to the records, the processing time for the 215 CJ requests
averaged 76 days. Of the 215 CJ requests, just 18 were processed within the
permissible timeframe, with the processing time ranging from 13 to 356 days.
The processing time was measured from the time that DTRA received the
CJ request until the time a response was returned to DTC. If additional
information was requested from the exporter or if there was an escalation above
DTC for a final determination, that time did not count in the 76-day processing
time.

The Defense OIG found that the DTRA licensing officer processing CJ requests
also processed license requests when necessary. Export license applications were
normally given a higher priority than CJ requests. DTRA is in the process of
hiring 12 new licensing officers and 18 engineers to alleviate the existing


                                     17
workload among licensing officers. The DTRA licensing officer who handles
CJ requests was confident that the mandatory 35-day timeframe for CJ requests
could be met if one individual was dedicated to the effort full time.

By contributing to delays in rendering CJ determinations to exporters, DTRA is
causing uncertainty in the business community regarding export controls. Timely
determinations provide certainty to the business community and increase the
likelihood that the business community will correctly comply with export control
regulations.

The Defense OIG recommended that DTRA provide resources to decrease
processing times for review of CJ requests. DTRA concurred with the
recommendation.
State Commodity Jurisdiction Review. The State OIG selected a judgmental
sample of 20 CJ cases from the 103 final determinations completed during
FY 2000. The State OIG found the average processing time for the 20 CJ cases
in the sample was 196 days, or approximately 6.5 months. According to the
DTC records, the processing time for the 103 CJ requests averaged 46 days.

The State OIG concluded that the timeliness problems occurred because BXA and
DTRA had been extremely slow in responding to DTC referrals, and DTC did
not impose or enforce deadlines on BXA or DTRA. In addition, the State OIG
found that DTC also contributed to the timeliness problem because even in the
cases where BXA and DTRA responded in a relatively timely fashion, DTC still
took months to issue a determination. For example, in one case it took the
exporter 10 months to get an answer from DTC, even though BXA and DTRA
returned their recommendations to DTC within 3 months. In another case, it took
an exporter almost 11 months to get a response from DTC, although DTC had
received the BXA and DTRA recommendations in 3 months. The slow DTC
processing time was not in compliance with the National Security Council
guidance, which states that the process is supposed to take no more than
95 calendar days from start to finish.

Despite the problems jointly reported by the OIGs related to timeliness and
transparency, the State OIG did not detect any instance where DTC did not give
deference to the views of national security agencies in making a CJ determination.
Similarly, the State OIG found no instance in which DTC overrode a
recommendation from a Defense or intelligence agency.

The State OIG recommended that DTC develop procedures to regularly notify
BXA and DTRA of deadlines for specific cases to conform with the National
Security Council guidelines. DTC concurred with the recommendation. The
State OIG also recommended that DTC develop and implement a plan to improve
its CJ procedures to ensure that the agency is able to meet the deadlines set forth
in the National Security Council guidance. DTC concurred with the
recommendation.




                                    18
An Automated Commodity Jurisdiction Process is Needed
    The Commerce and State OIGs found that the CJ cases were processed manually.
    As a result, the process could be unreliable and in many cases was not transparent
    or timely. The process relied on faxing information back and forth between the
    agencies, which led to problems with faxes being lost, misplaced, or misdirected,
    resulting in unnecessary delays. When DTC receives a CJ request, it faxes a
    copy to BXA and DTRA for their review. When BXA and DTRA have
    completed their review, they fax their positions back to DTC. Then, when DTC
    makes its final determination, the decision is faxed to BXA and DTRA for their
    information. If either agency disagrees with the DTC decision, they have 5 days
    to either provide rebuttal information or escalate the case for resolution to
    higher-level officials.

    The Commerce OIG found that under such a manual system, BXA and DTRA are
    unable to see the other’s position on a CJ determination request unless specifically
    asked for. The position then has to be faxed or sent by courier. Depending on
    the workload of the staff at DTC, such requests are not always promptly fulfilled.
    Having the information would be helpful to the technical experts at both agencies
    so that they could view the opinions of other “experts” and perhaps see an issue
    or viewpoint they had not considered. In addition, the Commerce OIG found that
    because the information is not automated, BXA and DTRA did not have access to
    historical CJ information. According to BXA technical experts, such information
    would be helpful in reviewing future CJ requests from the same company or for
    “like” products. It would likely save time for the engineers because they would
    not have to conduct duplicative research on a company or commodity that was
    previously reviewed. Finally, because of the manual process, BXA managers
    told the Commerce OIG that sometimes the 5-day rebuttal period has already
    passed by the time the appropriate technical expert is given the fax from DTC.
    That situation can happen when someone is on vacation or is not diligent in
    removing incoming faxes from the fax machine. Thus, in those cases, BXA
    misses its opportunity to rebut or escalate a determination.

    The State OIG reported that the CJ process also relies on agencies to manually
    retrieve information from DTC. Both BXA and DTRA send couriers to pick up
    each CJ package, which contains background information submitted by the
    exporter on the particular commodity. The State OIG found that the arrangement
    has resulted in problems because, according to the DTC CJ officer, BXA will
    occasionally claim that they never received a package months after it has been
    picked up. Those problems are exacerbated because DTC does not have a way to
    communicate via computer with the other Government agencies involved in the
    CJ process. The State OIG believed that this lack of transparency inhibited the
    CJ process.

    The Commerce and State OIGs recommended that DTC, with assistance from
    BXA and DTRA, create, or include as part of the current systems redesign
    efforts, an automated system to process, refer, and store historical data on
    CJ cases. BXA nonconcurred with the recommendation, stating that the
    administration of the CJ process is the responsibility of DTC. BXA felt that it
    would be inappropriate to include such a process in its systems redesign efforts
                                         19
    and that the recommendation is better directed to DTC. The Commerce OIG
    recognizes that DTC has primary responsibility for the CJ process, but believes
    that all agencies need to participate in the design of a new system for the
    CJ process because each agency has unique needs and requirements that may
    impact how a new system is designed. Thus, in referring to current system
    redesign efforts, the Commerce OIG was primarily referring to the interagency
    U.S. Export Systems Automation Initiative, which is being managed by Defense.
    The Commerce OIG encourages BXA to work with DTRA and DTC, as part of
    the U.S. Export Systems Automation Initiative, to automate the CJ process. DTC
    requested that the consideration of the recommendation be deferred until the next
    joint OIG Congressionally mandated review, which will examine the information
    technology systems at each of the agencies involved in the export licensing
    process and their compatibility. The review is scheduled to begin in the spring of
    2001. In light of the fact that the next joint OIG review will examine the
    information technology systems at each of the agencies involved in the export
    licensing process and their compatibility, the State OIG agreed to allow the issue
    to be put off until the next report, with the caveat that these recommendations be
    fully examined and potentially implemented then.

Consultation Problems
    Formal Commodity Jurisdiction Requests. The Commerce and State OIGs
    reported that DTC did not always consult on CJ requests with BXA and DTRA as
    required by the 1996 National Security Council guidance. Specifically, during
    FY 2000, of the 220 CJ determination requests that were initiated in the same
    timeframe, there were cases that were not referred to BXA and DTRA.
    According to interviews conducted by the State OIG, DTC officials stated that
    they did not refer those cases because it was “obvious” that the commodities
    involved were USML items, or the exporter was submitting a second CJ on the
    same item for reconsideration and the National Security Council guidelines were
    unclear on how to handle cases submitted for reconsideration. The Commerce
    OIG believed that such justifications are not valid, particularly because the
    technical experts best able to decide on the licensing jurisdiction of an item reside
    in BXA and DTRA.

    The State OIG recommended that DTC refer to the relevant agencies all of the
    CJ requests it receives and inform the agencies of its final determination on each
    CJ request. DTC nonconcurred with the recommendation, stating it believed that
    the premise of the State OIG recommendation is that the relevant agencies are not
    being informed of all CJ requests and all decisions taken on them. DTC stated
    that the crux of the OIG recommendation related to two cases where, in fact, the
    agencies were informed of both requests and both decisions, but after DTC made
    an initial ruling.

    The State OIG disagreed with the DTC response on two counts. Of the
    220 CJ cases DTC initiated in FY 2000, only 103 were completed during the
    year. Of that 103, the State OIG sampled 20 and found 2 cases (10 percent) that
    were not properly referred to the other agencies according to the International
    Traffic in Arms Regulations and the National Security Council guidelines.
    Second, despite the fact that DTC believed that these were “obviously” USML
                                         20
items, it still should have followed the International Traffic in Arms Regulations
and National Security Council guidelines, which clearly state that DTC shall
notify Commerce and Defense of the initiation of each case.

Informal Commodity Jurisdiction Requests. During its review, the Commerce
OIG identified at least two cases where U.S. Customs Service agents seized
shipments at the border after DTC erroneously informed the agents that the
shipments were USML items. In those cases, DTC effectively made a verbal
CJ determination without first consulting with BXA and DTRA, as required. The
Commerce OIG questioned whether DTC should make such CJ decisions without
first consulting with the technical experts at BXA and DTRA, as DTC admittedly
does not have the technical expertise to make such decisions on its own. In both
cases, the items were actually CCL items and in one case, the exporter actually
had a current export license from BXA for the items it was exporting. Because of
the error by DTC, the exporters were highly inconvenienced, and in one case, the
exporter was forced to hire legal counsel and expend funds to represent its
interests with the U.S. Customs Service and DTC. In the opinion of the
Commerce OIG, those situations should not have occurred and could have easily
been avoided had DTC consulted with BXA and DTRA prior to making a verbal
CJ determination.

When the State OIG asked DTC to comment on this situation, DTC refused to
cooperate because they said it was beyond the scope of the joint OIG review.
DTC claimed that for the matter to be properly examined, U.S. Customs Service
processes and procedures would need to be reviewed. DTC also stated that
thousands of telephone calls between the U.S. Customs Service and DTC were
placed annually. Thus, DTC believes that the two cases the Commerce OIG
reported are not necessarily indicative of a systemic problem.

The Commerce OIG recommended that BXA request that DTC cease its practice
of making CJ determinations without first consulting with BXA and DTRA, as
required by the 1996 National Security Council guidance. BXA concurred with
the recommendation, but believed that the recommendation did not go far enough.
BXA officials stated that it is their opinion that the entire process of determining
the jurisdiction of commodities should be overhauled, as the process is neither
timely nor effective. The Commerce OIG agrees that the CJ process has
problems, but because the process is managed by DTC, it is not within the
purview of the Commerce OIG to make recommendations that must be
implemented by DTC. Therefore, the Commerce OIG reiterates its
recommendation, directed to BXA, that the agency request that DTC cease its
practice of making CJ determinations without first consulting with BXA and
DTRA, as appropriate. The State OIG did make a similar request directly to
DTC to refer all CJ cases to BXA and DTRA.




                                     21
                   D. Export License Jurisdictional Issues
                   The Commerce and State OIGs noted a breakdown in the interagency
                   process for resolving jurisdictional disputes for night vision equipment and
                   space qualified items. With regard to night vision equipment, the
                   Commerce and State OIGs raised the issue as to whether such equipment
                   should be licensed by BXA or by DTC. Because of the inability of the
                   licensing agencies to resolve the dispute, license applications are being
                   delayed and exporters are confused about which agency they should apply
                   to for a license for those goods. In addition, the U.S. Government has
                   been unable to make a decision about which agency has jurisdiction for
                   16 categories of space qualified items11 controlled under the CCL. As a
                   result, the National Security Council initiated a review to determine which
                   Federal agency has jurisdiction for the 16 space qualified items and was
                   expected to rule in April 2000. However, as of March 2001, no decision
                   has been made. Finally, the Commerce and State OIGs determined that
                   the lack of formal policies and procedures in the Government jurisdiction
                   process has led to confusion among both licensing agencies and exporters.

Night Vision Technology
           Night vision technology and commodities are examples of where the CCL and
           USML need to be clarified. At issue is whether this equipment should continue
           to be licensed by BXA or whether it should be considered a munitions item and
           licensed by DTC. In 1994, DTC transferred to BXA export licensing jurisdiction
           for dual-use night vision equipment, including (1) nonmilitary focal plane arrays;
           (2) nonmilitary image intensification tubes; and (3) commercial imaging systems
           containing military second or third generation image intensification tubes or
           military focal plane arrays.12 The transfer was prompted by the Memorandum of
           Disapproval on the Omnibus Export Amendments Act of 1990, in which former
           President Bush directed:
                        By June 1, 1991, the United States will remove from the U.S.
                        Munitions List all items contained on the COCOM [Coordinating
                        Commitee on Multilateral Export Controls] dual use list unless
                        significant U.S. national security interests would be jeopardized.

           Although the transfer did not take place until 1994, BXA, DTRA, and DTC
           signed a classified memorandum of understanding in 1992 establishing how BXA
           would process license applications for night vision equipment, among other items.
           Until recently, the licensing agencies adhered to the terms of the agreement.
           However, beginning in 1998, due in part to rapid changes in night vision

11
 According to the Export Administration Regulations, the term “space qualified” refers to products
 designed, manufactured, and tested to meet the special electrical, mechanical, or environmental
 requirements for use in the launch and deployment of satellites or high-altitude flight systems operating at
 altitudes of 100 km or higher.
12
     59 FR 46548 (September 9, 1994). The remaining night vision equipment is maintained on the USML.

                                                     22
        technology, the agreement began to be ignored. As a result, the licensing process
        for at least 33 specific night vision products has been effected. Between FY 1999
        and FY 2000, there was a 15-percent increase in the number of night vision cases
        escalated to the Operating Committee13 because of confusion over which Federal
        agency had licensing jurisdiction. Although most of the 259 licensing cases were
        eventually approved, the same types of applications are repeatedly escalated to the
        Operating Committee because the dispute concerning Federal agency jurisdiction
        continues unabated. BXA officials stated that each night vision case has to be
        reviewed from “the ground up,” regardless of whether a license may have
        previously been approved for the same exporter, item, and end user. As a result,
        exporters have complained that the long and unpredictable licensing process could
        discourage customers from buying night vision products from U.S. sources,
        especially because some of those items are available on the market from
        non-U.S. sources.

        The unresolved dispute concerning which Federal agency has jurisdiction for
        night vision equipment and technology has left exporters confused and uncertain
        as to which agency to apply to for a license. In at least one case, an exporter
        submitted similar applications (same product, same end use, and same country of
        destination) to BXA and DTC to determine which Federal agency would license
        the item first. As a result of the stalemate, in December 2000, BXA formally
        requested that the National Security Council determine which Federal agency, or
        agencies if the jurisdiction should be split somehow, has jurisdiction for the night
        vision items in dispute.

        The Commerce OIG recommended that BXA submit a formal written request to
        the new head of the National Security Council asking for early resolution of the
        jurisdictional issues regarding night vision equipment and technology. BXA, in
        responding to the Commerce OIG recommendation, indicated that it has already
        contacted the National Security Advisor and staff and that the National Security
        Council is well aware of the issue and taking steps to bring it to closure. BXA
        further stated that letters from BXA would not be conducive to resolving the
        matter more quickly. After receiving the BXA response to the recommendation,
        the Commerce OIG asked BXA to clarify whether or not its contact with the
        National Security Council was with the current Administration or the previous
        Administration. BXA responded that the Under Secretary for Export
        Administration verbally discussed the matter with the current National Security
        Council staff. While this partially meets the intent of the recommendation, the
        Commerce OIG believes that BXA should formally raise this matter, in writing,
        with the new National Security Advisor.




13
 If there is disagreement among agencies on whether to approve a license application after the initial
 interagency review period, the application is escalated to a higher-level interagency working group called
 the Operating Committee. The voting members of the committee include representatives from the
 Departments of Commerce, Defense, Energy, and State. The Chair of the Operating Committee is
 appointed by the Secretary of Commerce.

                                                    23
Space Qualified Items
        Space qualified items are another example of where the CCL and USML need to
        be clarified. The dispute over space qualified items began with passage of the
        National Defense Authorization Act for Fiscal Year 1999, which transferred
        licensing jurisdiction for commercial communication satellites from BXA back to
        DTC.14 Specifically, Section 1513(a) of the Act states that the transfer applies to
        “all satellites and related items that are on the Commerce Control List.”
        Section 1516 of the Act further defines related items as, “satellite fuel, ground
        support equipment, test equipment, payload adapter or interface hardware,
        replacement parts, and non-embedded solid propellant orbit transfer engines.”
        However, because of a disagreement between BXA and DTC in interpreting the
        Act’s language, 16 categories of space qualified items did not transfer to DTC in
        March 1999 along with the other satellite systems and components.

        To resolve the dispute, in January 2000 an interagency group chaired by the
        National Security Council that included BXA, DTRA, and DTC initiated a review
        of the 16 categories of items on the CCL that contain space qualified items. The
        purpose of the review was to determine whether any of the items should be
        transferred from the export-licensing jurisdiction of BXA to DTC. While a
        decision was expected in April 2000, no decision has been reached on any of the
        items as of March 2001.

        In the meantime, the National Security Council ruled that the space qualified
        items in question are to remain under the jurisdiction of BXA until a final
        decision can be made on the jurisdiction of the items. However, BXA officials
        were concerned that DTC might be licensing space qualified items anyway.
        Although the Director of DTC stated that, “our licensing officers know about
        those items, and they would not intentionally license them,” a query of the DTC
        licensing database determined that DTC had licensed some space qualified items
        contrary to the National Security Council guidance.

        The Commerce OIG recommended that BXA submit a formal written request to
        the new head of the National Security Council asking for early resolution of the
        jurisdictional issues regarding the 16 space qualified items. BXA responded that
        the agency has already contacted the National Security Advisor and staff, and the
        Council is taking steps to bring to closure the dispute over the 16 categories of
        space qualified items. As with the night vision equipment issue, BXA did not
        believe letters from the agency would be conducive to resolving the matter more
        quickly. After receiving the BXA response to this recommendation, the
        Commerce OIG asked BXA to clarify whether its contact with the National
        Security Council was with the current Administration or the previous

14
 In 1990, then President Bush ordered the removal of dual-use items from the USML unless significant
 U.S. national security interests would be jeopardized. As a part of this effort, State transferred
 jurisdiction of some commercial communications satellites to Commerce in 1992. Nonmilitary satellites
 containing certain militarily sensitive characteristics remained on the USML. However, in 1996
 President Clinton ordered transfer of the remaining commercial communications satellites from State to
 Commerce.

                                                   24
    Administration. BXA responded that the Under Secretary for Export
    Administration verbally discussed the matter with the current National Security
    Council staff. While this partially meets the intent of the recommendation, the
    Commerce OIG believes that BXA should formally raise this matter, in writing,
    with the new National Security Advisor.

Government Jurisdiction Process
    In an attempt to resolve the jurisdictional dispute relating to night vision
    technology, State’s Bureau of Nonproliferation requested that DTC initiate a
    Government jurisdiction determination for 33 specific night vision products in
    June 2000. The Government jurisdiction process is supposed to work in a
    manner similar to the CJ process, except that instead of an exporter initiating the
    request, a Federal agency does. During FY 2000, DTC initiated 14 Government
    jurisdiction requests—seven from the U.S. Customs Service; six from DTRA; and
    one from Energy. In the night vision technology case, however, the Government
    jurisdiction process failed to solve the dispute because a disagreement over how
    the process is supposed to operate occurred. Specifically, DTC claims that the
    Government jurisdiction process is designed to support law enforcement agencies
    such as the U.S. Customs Service. Therefore, after 6 months of holding up
    initiating Government jurisdiction reviews for 33 night vision products, DTC
    determined it was not going to initiate the reviews. Instead, DTC believed that
    the CJ process was the proper way to proceed (although as of March 2001 DTC
    had not notified the licensing agencies or industry of this decision). Despite the
    lack of action on the part of DTC regarding the night vision cases, the Commerce
    and State OIGs believe the same criteria applied to CJs can be used as a baseline
    for Government jurisdictions.

    The Commerce OIG recommended that BXA request that the National Security
    Council provide formal guidance on how BXA, DTRA, and DTC should process
    Government jurisdictions, similar to the guidance the National Security Council
    issued for the CJ process. BXA nonconcurred with the recommendation.
    Specifically, BXA did not regard the Government jurisdiction process as
    legitimate, as it has not been validated by law, regulation, or executive order.
    Therefore, rather than providing guidance on Government jurisdiction processing,
    BXA would prefer to see the concept abandoned. Commerce OIG disagrees with
    the BXA position. The Government jurisdiction process has been useful in the
    past because it is the only vehicle by which agencies can deal with jurisdictional
    issues at the agency level rather than escalating the cases to a higher level, such
    as the National Security Council. Therefore, the Commerce OIG reiterates its
    recommendation that BXA request that the National Security Council provide
    guidance on how BXA, DTRA, and DTC should process Government
    jurisdictions, similar to the guidance the Council issued for the CJ process.

    The State OIG recommended that DTC establish written policies and procedures
    for the Government jurisdiction process, in coordination with all of the
    Government agencies involved in the CJ process. DTC partially agreed with the
    intent of the recommendation, stating that they will remind other agencies and
    other State offices through a written notice that jurisdictional questions involving
    U.S. exporters must be resolved through the commodity jurisdiction procedures.
                                         25
                E. Commodity Classification Process
                The Commerce and Defense OIGs reported that the commodity
                classification process was not transparent because BXA may not be
                referring munitions-related commodity classifications to DTRA and DTC.
                The failure of BXA to refer such commodity classifications to the other
                licensing agencies, as called for in guidance issued by the National
                Security Council in 1996, leaves BXA vulnerable to incorrect
                classifications. That finding was also reported as part of the 1999
                interagency OIG export licensing review. While BXA concurred with the
                1999 Commerce OIG recommendation to work with the National Security
                Council to develop specific criteria and procedures for the referral of
                munitions-related commodity classifications to DTRA and DTC, BXA has
                taken no action to correct those problems. In addition, during the current
                review, the Commerce OIG found that BXA was not providing DTC a
                copy of the final commodity classification determinations for any
                commodity classifications that it reviewed.

Commodity Classification Process and Guidance
        Commodity Classification Process. Exporters are responsible for determining
        whether an item requires an export license, but BXA will advise an exporter
        whether an item is subject to the Export Administration Regulations and, if
        applicable, identify the appropriate ECCN. Exporters can verbally inquire about
        a commodity classification but only written inquiries result in a binding
        determination. When making written commodity classification requests,15
        exporters must provide descriptive literature or brochures, precise technical
        specifications, or papers that describe the items in sufficient technical detail to
        enable BXA engineers to accurately classify the items. Important to note is that
        after exporters receive a commodity classification determination, they still must
        apply for a license if one is required.

        National Security Council Guidance. The National Security Council set forth
        guidance for processing commodity classification and CJ requests in an effort “to
        improve interagency coordination and transparency” with regard to those
        processes. Essentially, the National Security Council guidance continues the
        process of allowing exporters to initiate commodity classification requests with
        BXA to determine whether items are subject to the Export Administration
        Regulations. However, the guidance also directs BXA to “share with State and
        Defense all commodity classification requests for items/technologies specifically
        designed, developed, configured, adapted and modified for a military application,
        or derived . . . from such items or technologies.”




15
 BXA also responds to many phone inquiries about commodity classifications, but advice provided over
 the phone is not considered to be a binding determination.

                                                  26
1999 Interagency OIG Export Licensing Report
    As part of the 1999 interagency OIG export licensing review, the Commerce,
    Defense, and State OIGs determined that the commodity classification process
    was not transparent because BXA had not referred all munitions-related
    commodity classifications to DTRA and DTC as required by the 1996 National
    Security Council guidance. The 1999 interagency OIG export licensing report
    stated that because BXA rarely referred commodity classification requests to
    DTRA or DTC, BXA analysts did not benefit from the perspective of DTRA and
    DTC analysts. The interagency OIG report also identified opportunities to
    provide more transparency to the commodity classification process by BXA
    referring classification requests concerning agreed-upon commodities to referral
    agencies.

    The Commerce OIG recommended that BXA, in conjunction with DTRA and
    DTC, work with the National Security Council to develop specific criteria and
    procedures on how to implement its 1996 guidance for referral of
    munitions-related commodity classifications to DTRA and DTC. The Defense
    OIG recommended that DTRA work with BXA to develop additional guidance
    and procedures on how to implement the 1996 National Security Council
    guidance. Although BXA and DTRA managers concurred with the Commerce
    and Defense OIG recommendations, no action has been taken on this important
    matter.

Transparency of the Commodity Classification Process
    Referral Guidance. Since the 1999 interagency OIG export licensing review,
    DTRA and DTC have indicated to the OIG review team a need for more
    transparency in the commodity classification process. Specifically, they want the
    process to be completely open to interagency review similar to the export
    licensing process. To illustrate the need for greater transparency, the agencies
    routinely point to a 1995 case in which BXA mistakenly classified an investigative
    report on the crash of a Chinese rocket carrying a satellite and determined that no
    export license was needed. BXA allowed release of this report without consulting
    with DTRA or DTC. BXA later admitted that the report fell under DTC
    jurisdiction because the accident occurred in part of the rocket and not in the
    satellite. As such, the Commerce and Defense OIGs believe that with improper
    classification determinations, certain items of national security concern could be
    exported to problematic destinations without interagency review.

    Of the 2,049 nonencryption commodity classification requests BXA processed
    during FY 2000, BXA referred only 13 to DTC (per DTRA delegation of
    authority to BXA, BXA did not refer any commodity classifications to DTRA in
    the same timeframe). Because there is no way DTRA or DTC can question
    commodity classifications that are not referred, the Commerce and Defense OIGs
    believe that those agencies may have a legitimate concern that BXA may be
    advising exporters that munitions-controlled items are licensable by BXA or
    require no license at all.

                                        27
Recognizing that the small number of commodity classifications referred may not
alone be indicative of whether BXA properly referred the munitions-related
commodity classifications it processed during this time period, the Commerce
OIG intended to conduct a sample that would help provide more insight into the
matter. Unfortunately, because BXA did not provide the Commerce OIG with
the necessary raw data in a timely manner, the Commerce OIG was not able to
conduct a sample. The Commerce OIG did not propose that BXA refer all
commodity classifications requests to DTC and DTRA at this time, however, the
Commerce OIG believes that BXA needs to be proactive and work with DTC and
DTRA to make the commodity classification process more transparent with
regard to items or technologies specifically designed, developed, configured,
adapted, and modified for a military application, or derived from such items as
called for in the 1996 National Security Council guidance. After discussing its
concerns with one National Security Council official responsible for export
control policy, the Commerce and Defense OIGs believe that the Council would
be willing to revisit the issues raised here if requested to do so by the
participating agencies.

The Commerce and Defense OIGs believe that the overall disagreement in the
commodity classification process stems from the fact that the 1996 National
Security Council referral guidance relating to commodity classification is open to
interpretation. BXA interprets that language very narrowly, such that it will only
refer classifications that, in its opinion, are clearly “munitions related.” DTRA
and DTC make a broader interpretation of the language that would require most
commodity classifications to be referred.

The Defense OIG determined that the significant military expertise in DTRA
could provide real value in ensuring that proper classifications are provided to
exporters. Thus, the Defense OIG continued to strongly agree with the DTRA
position that all commodity classification decisions must be subject to interagency
reviews.

The Commerce OIG recommended that BXA request that the National Security
Council form a working group (including BXA, DTRA, and DTC) to review the
1996 commodity classification guidance, revise it if necessary, and develop
specific criteria and procedures to ensure that the referral of munitions-related
commodity classifications to DTRA and DTC is handled in a timely, transparent,
and appropriate manner by all agencies involved. In responding to the Commerce
OIG recommendation, BXA stated that while it concurred with the same
recommendation in its response to the 1999 interagency OIG export licensing
report, BXA believes that the National Security Council should first form a
working group to focus on the CJ process before recommending that the Council
form a working group to review commodity classification guidance. The
Commerce OIG encourages BXA to request that the National Security Council
review the CJ process, if BXA believes that such a review is needed. However,
the Commerce OIG reiterates the need for BXA to be proactive and request that
the National Security Council form a working group (including BXA, DTRA, and
DTC) to review the 1996 guidance, revise it if necessary, and develop specific
criteria and procedures to ensure that the referral of munitions-related commodity
classifications to DTRA and DTC is handled in a timely, transparent, and
appropriate manner by all agencies involved.
                                    28
DTRA Position on Commodity Classifications. Further complicating the issue
of the DTRA position on commodity classifications is a May 13, 1996, letter sent
by DTRA to the Deputy Assistant Secretary of Export Administration requesting
that Commerce provide to DTRA, on a weekly basis, a copy of completed
commodity classification requests and decisions. BXA officials interpreted the
letter to mean that DTRA was interested in seeing only completed commodity
classifications and not any proposed commodity classification requests. Thus,
BXA officials would not send commodity classification requests to DTRA for
review unless the letter was rescinded. In an attempt to resolve this matter, the
Assistant Inspector General for Auditing, Department of Defense, sent a
memorandum dated December 6, 2000, to the Deputy Under Secretary of
Defense (Technology Security Policy) requesting clarification of the DTRA
position on reviewing commodity classification requests. The Deputy Under
Secretary of Defense sent this reply in writing to the Assistant Inspector General
for Auditing.
           Notwithstanding the National Security Council guidance issued in 1996,
           DoD has long maintained that all commodity classification decisions
           must be subject to prior interagency review. Over recent years, DoD
           has testified numerous times before Congress that greater transparency
           is needed as well as a timely process to ensure that disputed cases are
           escalated to appropriately senior officials . . . There are important
           national security interests involved with commodity classifications. For
           example, one possible outcome is a classification that no [export]
           license is required. If this determination is not proper, then certain
           items of national security concern could be exported to problematic
           destinations without prior government review. As such, we believe that
           the significant military expertise resident in DoD can provide real value
           in ensuring that proper classifications are provided to exporters.

The Deputy Under Secretary of Defense also stated that DTRA worked closely
with several Congressional committees as part of deliberations on a new Export
Administration Act and was supportive of language in a new Act requiring BXA
to refer all commodity classification requests to DTRA and other departments or
agencies, as appropriate. As of March 2001, the Deputy Under Secretary of
Defense still has not rescinded its 1996 delegation of authority to BXA.

The Defense OIG recommended that the Deputy Under Secretary of Defense
(Technology Security Policy) continue to work with BXA to establish a process
whereby all commodity classification requests are reviewed by DTRA in a
disciplined and transparent procedure with strict timeframes. The Deputy Under
Secretary of Defense (Technology Security Policy) concurred with the
recommendation.

Final Commodity Classification Determinations. The 1996 National Security
Council guidance requires BXA to refer munitions-related commodity
classification determinations to DTC for review and allows DTC 2 working days
to provide BXA with a recommendation. Once DTC provides its commodity
classification recommendation to BXA, DTC receives no indication from BXA as
to whether the recommendation was accepted. However, DTC officials informed
the Commerce and State OIGs that DTC would like to know the BXA final

                                         29
commodity classification determination to “close out” their files. In addition, if
the final commodity classification determination indicates that the item in question
falls under the USML, DTC could then possibly conduct an outreach visit to the
U.S. exporter who submitted the commodity classification request.

When the Commerce and State OIGs asked DTC officials if they had ever asked
BXA to provide them with the final commodity classification determinations,
DTC officials replied in the negative. When the Commerce OIG asked BXA
officials why they did not notify DTC of the final commodity classification
determination, BXA officials responded that DTC has never requested a copy of
the final determination. However, BXA officials indicated that they would
accommodate such a request from DTC.

The Commerce OIG recommended that BXA provide DTC with a copy of the
final determination for any commodity classification that DTC reviews. BXA
responded that it will provide copies of the closed commodity classifications to
DTC only if it requests them. Commerce OIG agrees with BXA that DTC should
have made this request to BXA directly. However, in the spirit of cooperation,
the Commerce OIG believes that BXA should take the lead on this issue and
provide DTC with a copy of the closed commodity classifications that it reviews.




                                     30
Appendix A. Review Process

Scope
        The review focused on the policies and procedures for developing, maintaining,
        and revising the CCL and USML. In addition, the review focused on other
        applicable laws, executive orders, regulations, and departmental guidance
        regarding the CCL and USML. The OIG review teams contacted responsible
        personnel in their respective agencies and in other Federal agencies and
        governmental organizations, as appropriate. The agencies involved in the CCL
        and USML processes, which include BXA, DTRA, the Office of Nuclear
        Transfer and Supplier Policy, and DTC, provided briefings to the OIG review
        teams on respective roles and responsibilities. The review teams also met with
        exporters and private sector members of Technical Advisory Committees who
        advise Government officials on export control matters. The participating review
        teams were from the Commerce, Defense, Energy, and State OIGs.

Methodology
        To coordinate the review of interagency issues and determine the work to be
        performed by each OIG team, the four OIGs formed an interagency working
        group and held monthly meetings during the review. The reviews were
        conducted from August 2000 through January 2001.

        Commerce Methodology. To assess the policies and procedures for developing,
        maintaining, and revising CCL and USML, the Commerce OIG reviewed BXA
        policies and procedures to determine whether the design, maintenance, and
        application of the CCL adequately controlled the export of militarily sensitive
        technologies. In particular, the Commerce OIG evaluated how the CCL is
        managed, including whether it is user-friendly and how commodities and
        technologies are added to and removed from the list. The Commerce OIG
        examined whether a need exists for greater transparency in the DTC CJ process.
        Finally, the Commerce OIG also examined whether there is still a greater need
        for transparency in the BXA commodity classification process.

        The review methodology included interviews with various BXA officials,
        including attorneys, licensing officials, policy and regulation officials,
        programmers, and senior managers. The Commerce OIG spoke with officials at
        DTRA, Energy, DTC, and the National Security Council. The Commerce OIG
        attended several Technical Advisory Committee16 meetings and participated in
        two Regulation and Procedures Technical Advisory Committee meetings. In
        conjunction with the Defense OIG, the Commerce OIG compared the ECCNs on
        the CCL with items on the export control lists of the multilateral regimes of
        which the United States is a member. The Commerce OIG interviewed exporters

16
 The Technical Advisory Committees consist of technical experts from industry who are to advise the
 Secretary of Commerce on export control matters and to be consulted on revisions to the CCL.

                                                  31
to determine the ease with which they can use and apply the CCL to potential
exports. Three organizations also provided written comments on the
user-friendliness of the CCL.

Defense Methodology. To assess the policies and procedures for developing,
maintaining, and revising the CCL and USML, the Defense OIG examined the
DTRA process for ensuring that U.S. national security objectives are considered
when revisions to the CCL and the USML are made. Specifically, the Defense
OIG evaluated whether DTRA decisions regarding the CCL, the list of militarily
critical technologies, and the USML are reached in an efficient, optimum manner
using available information and resources.

The Defense OIG reviewed the applicable part of the Export Administration Act
and Export Administration Regulations; the CCL, list of militarily critical
technologies, and USML; the export control lists of international organizations;
the Institute for Defense Analyses task order and technology working group
documentation; the documentation concerning the timeliness of commodity
classification and CJ requests; and the white paper concerning the Defense Trade
Security Initiatives and plan for the annual review of the USML. In addition, the
Defense OIG interviewed personnel within Commerce, Defense, Energy, State,
the National Security Council, and the Institute for Defense Analyses.

Energy Methodology. To assess the policies and procedures for developing,
maintaining, and revising the CCL and USML, the Energy OIG conducted
fieldwork at Energy headquarters and three Energy laboratories—Lawrence
Livermore National Laboratory, Los Alamos National Laboratory, and Oak
Ridge National Laboratory. The Energy OIG interviewed officials from the
headquarters Office of Nuclear Transfer and Supplier Policy, which is in the
Office of Arms Control and Nonproliferation, Office of Defense Nuclear
Nonproliferation. The Office of Nuclear Transfer and Supplier Policy is
responsible for developing Energy’s export control guidance. The Energy OIG
also interviewed contractor officials at the three Energy laboratories who provide
technical assistance on export controls. In addition, the Energy OIG reviewed the
applicable laws, Executive Orders, regulations, and Department of Energy
guidance regarding Energy’s export licensing process for dual-use and munitions
commodities.

State Methodology. To assess the policies and procedures for developing,
maintaining, and revising the CCL and USML, the State OIG evaluated the
process for placing items on the USML and the policies and procedures for
considering amendments and revisions to it. The State OIG assessed the policies
and procedures in place at DTC for processing CJ cases in a timely and
transparent manner. The State OIG interviewed Department of State officials and
reviewed documents at DTC, including the International Traffic in Arms
Regulations and CJ files and records. In addition, the State OIG discussed the
USML and the CJ process with exporters and the Center for Strategic and
International Studies. The State OIG also spoke with officials from Commerce,
Defense, and Energy.



                                    32
Appendix B. Followup to Prior Interagency
            Review
     As amended, Public Law 106-65, National Defense Authorization Act for
     FY 2000, requires the OIGs to include in their annual report the status or
     disposition of recommendations made in earlier reports submitted in accordance
     with the Act. In the first year of the Act, the OIGs each conducted an audit or
     review of compliance with the deemed export licensing requirements contained
     in the Export Administration Regulations and the International Traffic in Arms
     Regulations. The results of the reviews were consolidated and reported in
     Report No. D-2000-109, “The Interagency Review of the Export Licensing
     Process for Foreign National Visitors,” March 2000. The March 2000
     Interagency Review contains the complete text of each agency report, including
     recommendations in appendixes. The following is the current status of the
     recommendations made by each agency.

Status of the Commerce OIG Report No. IPE-12454,
  “Improvements Are Needed in Programs Designed to
  Protect Against the Transfer of Sensitive Technologies to
  Countries of Concern,” March 2000
     Recommendations for the Bureau of Export Administration

     Recommendation: Aggressively pursue an outreach program to high
     technology companies and industry associations explaining and seeking
     compliance with the deemed export control requirements.

               Status: Within BXA, the Office of Exporter Services has the lead
     responsibility for educating the business community and U.S. government
     agencies about the “deemed export” provisions of the Export Administration
     Regulations (EAR). BXA informed the Commerce OIG that the Office of
     Exporter Services includes the subject of deemed exports in its 2-day export
     control seminars, which are held monthly in cities across the United States.
     Plenary sessions were also conducted on deemed exports at the BXA annual
     Update Conference in July 2000, which BXA estimated included 800 industry
     representatives. In addition, BXA keeps industry informed of deemed exports
     through its various Technical Advisory Committee meetings. Furthermore, the
     Commerce OIG noted that BXA senior managers also periodically include
     information on deemed exports in speeches given at industry events.

     In addition to the outreach activities, the Office of Export Enforcement (OEE),
     through its Project Outreach program, meets with employees of businesses,
     officials of other Federal agencies, and university officials to make them aware



                                        33
of their export control compliance responsibilities under the EAR. According to
OEE officials, the guidance includes making the individuals aware of the
deemed export provisions of the EAR.

During FY 2000, the OEE reported that it conducted 1,033 Project Outreach
visits and 60 public relations appearances (such as trade association meetings or
OEE Business Executive’s Enforcement Training meetings). OEE officials
informed the Commerce OIG that because many of the dual-use technologies
and commodities controlled under the EAR are high technology, a significant
proportion of the OEE contacts with the business community are with
high-technology firms. In addition, OEE special agents have visited numerous
research institutes and universities that employ or sponsor foreign nationals.
BXA actions meet the intent of the Commerce OIG recommendation.
Recommendation: Develop a link on the BXA main Internet web site
specifically dedicated to deemed exports as was done for the Chemical
Weapons program.

          Status: On March 15, 2000, a deemed export web site link was
established on the main BXA web site. The web site includes a comprehensive
list of questions and answers covering what the deemed export rule is, who is
considered a foreign national, what the licensing requirements for foreign
nationals are, and what technologies are subject to control. BXA actions meet
the intent of the Commerce OIG recommendation.

Recommendation: Expand outreach efforts with Federal agencies
(including the Departments of Commerce, Defense, Energy, and
Transportation, and the National Aeronautics and Space Administration) to
ensure that these agencies fully understand the deemed export requirements
and to help them determine whether foreign visitors at their facilities and/or
laboratories require a deemed export license. At a minimum, BXA should

(a) Respond to the Energy’s November 1999 request to review and concur
with the informal deemed export guidance that BXA provided to Energy
officials at a June 1999 meeting.

         Status: Although BXA has still not formally responded to the Energy’s
November 1999 request to review and concur with the informal deemed export
guidance that BXA provided to Energy officials at a June 1999 meeting, the
Commerce OIG acknowledges that BXA is now engaged in a continuing
dialogue with Energy on various export control issues, including deemed export
controls. BXA actions meet the intent of the Commerce OIG recommendation.

(b) Follow up with the Director of the National Institute of Standards and
Technology (NIST) on the three cases we identified to determine whether
deemed export licenses should have been obtained and assist NIST in
developing an export compliance program.




                                    34
        Status: According to BXA, licensing officials held consultations with
NIST and determined that the three cases in question were instances of
“fundamental research” and, as such, no deemed export license was required.
BXA actions meet the intent of the Commerce OIG recommendation.

(c) Engage in discussions with the National Oceanic and Atmospheric
Administration (NOAA) Administrator, as well as the Assistant
Administrators of its line offices, and in particular the National
Environmental Satellite, Data, and Information Service (NESDIS), to
discuss deemed export regulations and their potential applicability to
NOAA.

          Status: According to BXA, in June 2000, the BXA Deemed Export
Program Director contacted his counterpart at NOAA to extend the offer to
conduct a briefing for appropriate NOAA officials regarding the deemed export
license requirement, but no followup was sought by NOAA. As a followup
measure, BXA stated that it will send a memo to NOAA extending the offer for
a deemed export briefing when the new NOAA Administrator has been
appointed. However, during FY 2000, OEE visited the NOAA facility in
Boulder, Colorado, to meet with attorneys in its Office of Chief Counsel.
According to OEE officials, the presentation was focused primarily on deemed
exports. While the BXA action partially meets the intent of this
recommendation, the Commerce OIG reaffirms its original recommendation for
BXA to engage in discussions with senior NOAA officials across all of its line
offices.

(d) Meet with Department of Transportation officials to ensure their
understanding and compliance with deemed export license requirements.

         Status: According to BXA, representatives from Export
Administration and Office of Chief Counsel met with legal staff from the
Department of Transportation Federal Aviation Administration in June 2000.
BXA informed us that they provided an extensive briefing on the regulatory and
procedural requirements of the deemed export program. In addition to the
Federal Aviation Administration, BXA reported that it contacted officials at the
Department of Transportation and provided them with copies of the regulation
and web site material. BXA actions meet the intent of the Commerce OIG
recommendation.

Despite a lack of action on some of the Commerce OIG recommendations, BXA
appears to have made more concerted effort since issuance of our March 2000
report to ensure that other Federal agencies have a clear and uniform
understanding of the licensing requirements for transfer of controlled technology
to foreign nationals. For example, BXA reported that the OEE conducted
350 liaison meetings with other Federal agencies during FY 2000. BXA also
informed the Commerce OIG that it includes its sister agencies as both guests
and instructors in seminar programs in an effort to educate agency officials on
BXA responsibilities in the export control arena, including deemed exports.
Furthermore, BXA provided the Commerce OIG with the following information
concerning some of its increased outreach activities to other Federal agencies
regarding deemed exports.
                                   35
   •   Department of Energy. In April 2000, BXA provided speakers and
       training material on the subject of deemed exports at the Energy
       Department’s Export Control Coordinators Organization (ECCO)
       conference. The ECCO is the coordinating body for those who deal with
       export controls at the various Energy laboratories. Furthermore, as a
       result of a recent administrative settlement with Energy’s National
       Laboratories related to alleged violations of the EAR, BXA is currently
       hosting officials from Energy units short-term details. During their stay
       in BXA, Energy personnel gain comprehensive insight into BXA
       priorities regarding licensing and enforcement concerns. Furthermore,
       in March 2001, OEE hosted an Export Control Seminar for Energy
       personnel at the Los Alamos, New Mexico, and Lawrence Livermore,
       California, National Laboratories. In addition to traditional export
       control concerns, the Director of OEE delivered a presentation on
       compliance with deemed exports to Energy personnel. Since
       March 2000, OEE special agents have also participated in Project
       Outreach visits and BXA Export Seminars at Energy facilities, that
       include the National Renewable Energy Laboratory, the Thomas
       Jefferson National Accelerator Laboratory, and the Oak Ridge National
       Laboratory.

   •   Department of Defense. In October 2000, the OEE made a presentation
       at the Defense Logistics Agency annual agent training in Battle Creek,
       Michigan, during which both deemed exports and “traditional” export
       control matters were discussed. OEE is also involved in interagency
       working groups in Milwaukee, Wisconsin, and Detroit, Michigan, that
       focus on topics such as deemed exports.

   •   National Aeronautics and Space Administration. According to the
       OEE, several of the National Aeronautics and Space
       Administration’s (NASA) operating units throughout the United States
       have been visited by OEE special agents in the last 3 years. Specifically,
       OEE reported that it has visited the NASA Dryden Flight Research
       Center, California, Johnson Space Center, Texas, Langley Research
       Center, Virginia, and Jet Propulsion Laboratory, California. According
       to the OEE, visits focused primarily on the deemed export of technology
       controlled under the EAR to visiting foreign scientists. The OEE special
       agents have also taken part in annual NASA training at its Ames
       Research Center.

Recommendation: Clarify the term “fundamental research” in the deemed
export regulations to leave less room for interpretation and confusion on the
part of the scientific community.

          Status: While BXA generally concurred with this recommendation in
its response to the Commerce OIG draft March 2000 report on this matter, in its
June 2000 action plan, BXA stated that narrowing the definition of fundamental
research would not only impair the relationship between industry and the
academic community but also hinder new technology development. The BXA
action plan also stated that any efforts to clarify the term in the regulations
would involve a lengthy process so, as an interim measure, BXA tried to clarify
                                   36
this term in its “Questions and Answers” page posted on its deemed exports web
site that was established in March 2000. While the Commerce OIG believes the
deemed export web site is a valuable tool for exporters, the explanation
provided for fundamental research is essentially a restatement of how the EAR
defines this term. As such, the Commerce OIG still maintains that U.S. entities
could misuse this exemption by broadly defining fundamental research so as not
to comply with deemed export controls. Therefore, the Commerce OIG does
not believe that the BXA actions fully meet the intent of the recommendation.

Recommendation: Work with the National Security Council to determine
what is the intent of the deemed export control policy and to ensure that the
implementing regulations are clear in order to lessen the threat of foreign
nationals obtaining proscribed sensitive U.S. technology inappropriately.
          Status: BXA has taken no action on this recommendation since
publication of the Commerce OIG report of March 2000. On March 14, 2000,
in response to the Commerce OIG draft report and just prior to issuance of the
final report, the Assistant Secretary for Export Administration sent a letter to the
Special Assistant to the President and Senior Director for Nonproliferation and
Export Controls at the National Security Council requesting that it convene a
working group of representatives from the Departments of Commerce, Defense,
Energy, Justice, State, and the Office of Management and Budget to review
U.S. policy regarding deemed export technology transfers. However, BXA has
not followed up with the National Security Council to determine the status of its
request. The BXA limited action on this matter does not meet the intent of the
Commerce OIG recommendation.

Recommendation: Track the number of visa application cables reviewed by
the Director of the Office of Enforcement Analysis’s (OEA) Export License
Review and Compliance Division, as well as those that are distributed to the
analysts for an in-depth review.

          Status: BXA estimates that the Director of the OEA Export License
Review and Compliance Division reviews between 15,000 and 20,000 visa
application cables annually. A count of the visa applications that the Director
believes need further review by OEA analysts are recorded on an electronic log,
which is updated on a daily or weekly basis, as needed. BXA actions meet the
intent of the Commerce OIG recommendation.

Recommendation: For the Visa Application Review Program, assess
whether OEA should continue to review the current level of visa application
cables.

          Status: According to BXA estimates, the Director of the OEA Export
License Review and Compliance Division reviewed between 15,000 and 20,000
of the 47,000 visa application cables received from the Department of State
Telecommunications Center in FY 1999. BXA managers reexamined the cable
profile for visa application cables to determine whether they could reduce the
number of cables reviewed. That review determined that both the number and
type of cables being reviewed by the OEA is appropriate given current resource

                                    37
levels. Therefore, BXA believes there is no need to decrease the number of
visa application cables that it reviews annually. BXA actions meet the intent of
the Commerce OIG recommendation.

Recommendation: Work with State to have a worldwide cable issued to
reiterate the need for complete information in the visa application cables,
including specific information for all stops on a visa applicant’s proposed
trip to the United States.

          Status: The OEA sent a letter to State in July 2000, requesting that a
worldwide cable be issued that reiterates the need for complete information in
the visa application cables, including specific information for all stops on a visa
applicant’s proposed trip to the United States. While the Director of the OEA
Export License Review and Compliance Division is not sure whether such a
cable was ever issued, the Director has seen some improvement in the visa
application cables. Specifically, all stops of the applicant in the United States
are now generally being provided in the visa application cables. BXA actions
partially meet the intent of the Commerce OIG recommendation. However,
according to the OEA Export License Review and Compliance Division, there is
still room for improvement in the information provided about each stop listed in
the visa application cables, such as which individuals, companies, or institutions
will be visited. Therefore, the Commerce OIG requests that BXA again contact
State to publish better guidance on the information needed in the visa application
cables.

Recommendation: Supplement the Visa Application Review Program
training materials with additional reference information, to include
checklists for the review process that are customized to the country of the
visitor and type of place (company or Government facility) to be visited in
the United States.

          Status: The Director of the OEA Export License Review and
Compliance Division created a checklist that identifies which resources are to be
checked by the analysts, based on the country of the visitor and the type of place
to be visited in the United States. This checklist was disseminated to the
analysts of the OEA in July 2000. In addition, training and informational
materials were subjected to a review to ensure continued applicability and
usefulness. Finally, the Director of the Export License Review and Compliance
Division meets regularly with staff members to ensure that all appropriate
resources are being consulted during the review of visa application cables.
BXA actions meet the intent of the Commerce OIG recommendation.

Recommendation: Change the OEA referral queue in Enforce to permit
statistical queries and electronic notification to the responsible agent of a
visa referral being made involving an existing case.

         Status: Although BXA stated that it would implement this
recommendation by September 2000, no action has been taken. According to
BXA managers, all of the information technology efforts dedicated to
developing the replacement program for the Export Control Automated Support

                                    38
System. Improvements to the old program, including the Enforce module, are
being given a low priority and are, in effect, not being done. BXA has not met
the intent of the Commerce OIG recommendation.

Recommendation: Designate a point of contact in the OEE Intel for receipt
and review of all visa referrals and have this point of contact interface on a
regular basis with an OEA representative to ensure that visa cases are
prepared, reviewed, and referred to the field offices in a timely manner.
Assess the effectiveness of this new procedure as part of the periodic
assessment of the overall Visa Application Review Program.

          Status: On May 8, 2000, the Director of OEE Intel was designated as
the point of contact in the OEE for receipt and review of all visa referrals. In
addition, a change was made to the Enforce database so that incoming visa
referrals from OEA now appear in the OEE Intel Director’s “tickler” file,
which enhances their visibility and enables the director to review and refer the
referrals to field offices more quickly. Both the Director of the OEA Export
License Review and Compliance Division and the Director of OEE Intel have
seen a significant improvement in the timeliness of visa application referrals
being made to OEE field offices. BXA has also pledged to review the new
procedure as part of the periodic assessment of the overall Visa Application
Review Program. BXA actions meet the intent of the Commerce OIG
recommendation.

Recommendation: Institute a standard procedure for instances when OEE
field offices uncover potential visa fraud that ensures that all such cases are
referred to the appropriate office in the State Department in a timely
manner.

          Status: On May 12, 2000, OEE sent procedural guidance to its field
offices regarding reporting instances of possible visa fraud to State. Under the
new procedures, all instances of possible visa fraud identified by OEE field
agents will be forwarded directly to the OEA, with an informational copy
provided to OEE Intel at headquarters. Upon receipt of any referrals of possible
visa fraud, OEA immediately sends the information to the appropriate office
State for action. BXA actions meet the intent of the Commerce OIG
recommendation.

Recommendation: Develop procedures within the OEA to ensure that visa
fraud referrals are made to State within the appropriate 10- or 15-working
day suspense period.

          Status: On May 12, 2000, the OEA sent guidance to the analysts who
review the visa application cables instructing them that if, during review of a
visa application cable they discover apparent or possible visa fraud, analysts are
to report the information to State immediately (via facsimile) and prior to further
review or referral elsewhere. According to the Director of the OEA Export
License Review and Compliance Division, no referrals for visa fraud have been
made since we made this recommendation. BXA actions meet the intent of the
Commerce OIG recommendation.

                                    39
            Recommendation: Stop making visa application referrals to State involving
            an entity on the Entity List.

                      Status: Effective April 1, 2000, OEA stopped making visa application
            referrals to State for entities listed on the BXA Entity List.1 Such referrals are
            now only made to OEE for appropriate action. BXA actions meet the intent of
            the Commerce OIG recommendation.

            Recommendation: Assess the Visa Application Review Program
            periodically, after the refinements we are recommending and others have
            been implemented, to determine whether the resources dedicated to the
            program justify the results. To that end, BXA should develop performance
            measures to help in determining the program’s success.

                      Status: In its action plan, BXA agreed that it would assess the Visa
            Application Review Program once all of the Commerce OIG recommendations
            have been implemented and would continue to do so periodically thereafter.
            However, in recent discussions with OEA managers, it is clear that such an
            assessment has not been, and likely will not be, performed. BXA does not feel
            it necessary to develop external performance measures for the program because
            ongoing and regular feedback is obtained from the OEE on the disposition of
            investigative referrals stemming from the Visa Application Review Program.
            According to OEA and OEE managers, the feedback shows that the program
            has led to several fruitful investigations. However, because those investigations
            can take many years to reach a conclusion, such as an indictment made or
            monetary fine levied, the program’s success is difficult to quantify. BXA
            believes for that reason, its internal measures are sufficient. However, the only
            internal performance measure that OEA tracks for the Visa Application Review
            Program is the number of investigative referrals made to the OEE, which totaled
            274 in FY 2000. The Commerce OIG is not convinced that the number of
            referrals to the OEE is a good measure of whether resources dedicated to the
            program justify the results. In the Commerce OIG opinion, the outcome of the
            referrals is much more important. Thus, the BXA actions do not meet the intent
            of the Commerce OIG recommendation.

            Recommendation: Work with the State Department and other interested
            agencies to formalize the review of visa applications under the Visas Mantis
            program in a memorandum of understanding. In addition, encourage the
            State Department to establish criteria for visa denials and develop a process
            for feedback so that the participating agencies are kept apprised of the
            results of their referrals.

                      Status: The State Department formalized the review of visa
            applications under the Visas Mantis program in an August 9, 2000,
            memorandum of understanding, which does contain criteria for visa denials.
            However, State has not developed a process for feedback to keep the
            participating agencies apprised of the results of the referrals. However,
            according to the Director of the OEA Export License Review and Compliance

1
    The BXA Entity List is a published listing of foreign end users involved in proliferation activities.

                                                        40
            Division, since the Commerce OIG report was issued, communication between
            State and BXA has improved significantly. In addition, meetings are being held
            more frequently among BXA, State, and other participating agencies. However,
            BXA would still like to obtain formal feedback on referrals that it makes to
            State, and it has made such a request to State. State has not responded to the
            BXA request, and it may be because BXA has made just a few visa application
            referrals to State during last year. Thus, creating a system to provide feedback
            on the disposition of those few referrals may not be a high priority for State at
            this time. The State OIG, which made a similar recommendation in its 2000
            report, will followup to determine precisely why State has not implemented the
            feedback portion of the recommendation. BXA actions meet the intent of the
            Commerce OIG recommendation.

            Recommendation: Ensure that all future Committee on Foreign Investment
            in the United States (CFIUS) filings, especially those involving countries of
            concern, are forwarded to both Export Enforcement and Export
            Administration’s appropriate licensing office for review. In addition, make
            certain that any referral and recommendations are documented in the
            CFIUS case file.

                      Status: Of the 76 notifications filed with CFIUS since March 2000,
            only four of those notifications were from countries of concern. Although BXA
            reported to the Commerce OIG that both Export Enforcement and the
            appropriate Export Administration licensing division review CFIUS filings from
            countries of concern, BXA could only provide us with documentation supporting
            the fact for two of the four cases that it reviewed since March 2000. Thus, the
            Commerce OIG would again encourage BXA to ensure that all future filings,
            especially those involving countries of concern, are reviewed by both the Export
            Enforcement and the Export Administration’s appropriate licensing office and
            that the referral notations and subsequent recommendations are recorded in the
            case file. BXA actions do not fully meet the intent of the Commerce OIG
            recommendation.

            Recommendation for the National Institute of Standards and Technology
            Recommendation: Ensure that the NIST Cooperative Research and
            Development Agreements (CRADA) 2 or any other agreements that the
            NIST may have with the private sector include a statement specifying its
            private sector partners’ need to comply with export control laws, such as
            obtaining a deemed export license for their foreign national employees, if
            applicable, before working on NIST research projects.




2
    A cooperative research and development agreement, or CRADA, is one means that the
    U.S. Government uses for technology transfer to the private sector. CRADAs are used when research
    being conducted jointly by Federal laboratories and non-Federal parties is more likely to result in the
    development of an invention and would generally increase the possibility that deemed export licenses
    could be required.

                                                      41
          Status: The terms and conditions of the standard NIST CRADA
document were modified to include a clause on the export of technical data.
According to the NIST, all new CRADAs executed by the NIST after April 7,
2000, include the new clause. Existing CRADAs that are extended or amended
for any reason will also include the clause as part of the new amendment. In
addition, the NIST is currently examining its other agreements with the private
sector to determine on a case-by-case basis whether those agreements should
also contain an export control clause. As a part of this exercise, the Commerce
OIG would encourage the NIST to examine its existing CRADAs that may not
come up for an extension or amendment to determine if they also need to be
amended to include the export clause. NIST actions meet the intent of the
Commerce OIG recommendation.

Recommendation for the National Institute of Standards and Technology,
the National Oceanic and Atmospheric Administration, and the Bureau of
Export Administration

Recommendation: Establish procedures to ensure that technical
information or know-how released to foreign nationals is in compliance with
Federal export licensing requirements. At a minimum:

(a) Develop guidance regarding when a visit, assignment, or collaborative
relationship of a foreign national to a NIST or NOAA facility requires a
deemed export license.

(b) Clearly state policies, procedures, and responsibilities of NIST and
NOAA hosts for determining whether a deemed export license is required.

(c) Establish a focal point at each appropriate NIST and NOAA research
facility to determine whether a deemed export license is required when a
foreign national visits the facility.

(d) Develop an export control program document containing procedures for
determining whether technology or commodities at NIST and NOAA
facilities can be exported to foreign countries, with or without a license.

(e) Mandate training requirements for personnel at NIST and NOAA
facilities on the deemed export licensing requirements.

NIST Status

          Status: In response to the Commerce OIG recommendations, the NIST
established an Export Control Working Group, which includes officials from the
major NIST management groups and divisions. The primary mission of the
group is to (1) review its current export control policies and procedures and
propose improvements where needed, (2) draft written policy guidelines on
export controls for NIST personnel, and (3) draft training materials on export
controls for NIST personnel. On March 24, 2000, the Working Group had a
kick-off meeting, which included a presentation by BXA officials.


                                   42
                      In May 2000, pending the adoption of formal written procedures, the
            offices of the NIST Counsel and International and Academic Affairs instituted
            short-term procedures for processing foreign guest workers working at the
            NIST. Workers coming from organizations on the BXA Entity List or from
            embargoed countries, regardless of which project they will be participating in at
            the NIST, were to be first vetted through the Office of NIST Counsel and
            formal applications for deemed export licenses are to be made. According to
            the NIST, it has filed two deemed export license applications with BXA since
            March 2000. Both applications were returned without action because no license
            was required.

                      Subsequently, a June 2000 memorandum from the Director of the
            NIST Program Office was sent to all the division chiefs informing them of
            U.S. export control laws and regulations governing the sharing of information
            with foreign nationals. The memorandum also requested that each chief
            provide the name, country of origin, and detailed description of the research
            being conducted by each guest worker currently visiting the NIST (as well as in
            the future) who comes from one of the countries listed on the restricted
            countries list contained in the International Traffic in Arms Regulations
            (ITAR).3 According to the memorandum, this information is to be forwarded to
            the Office of International and Academic Affairs. Finally, the memorandum
            designates the Office of NIST Counsel as the focal point for export control
            guidance, including questions and clearances.

                     In August 2000, the Director of NIST sent a memorandum to all NIST
            employees on the “Do’s and Don’ts When Dealing With Intellectual Property,
            Proprietary Information and Companies.” The memorandum is essentially a list
            of 10 principles to help NIST employees ensure that all their dealings with
            outside parties are ethical and are in compliance with federal law, regulation,
            and policy. Item 6 on the list warns against the disclosure of technical
            information to non-U.S. citizens and briefly explains the concept of deemed
            exports.

                      Finally, since issuance of the Commerce OIG March 2000 report,
            NIST has held three training sessions, primarily geared to NIST personnel
            involved in the Advanced Technology Program’s intramural activities, that
            include a discussion of export control-related issues, including deemed exports.
            Furthermore, NIST is planning another series of training courses involving
            general scientific collaborations during the coming year that is also expected to
            incorporate a discussion of export control-related issues. NIST actions meet the
            intent of the Commerce OIG recommendations.

3
    The ITAR list includes BXA embargoed countries. When the Commerce OIG questioned the NIST as to
    why it used the ITAR list as a baseline for its division chiefs to follow, the NIST informed it that the
    original intent of the memorandum was for the NIST to identify research being conducted by foreign
    guest workers from countries of concern, such as those from China, India, and Pakistan. However, the
    NIST pointed out that it is aware of the BXA Entity List and Denied Persons List as indicated by the
    fact that it applied for two deemed export license applications for individuals coming from an entity that
    appears on the BXA Entity List. The NIST stated that any future instruction on this issue will include
    references to not only the ITAR-restricted list, but also the BXA Entity and Denied Persons Lists.

                                                       43
    NOAA Status

                Status: In its action plan, NOAA stated that its NESDIS is prepared to
    work with BXA to improve its policies and procedures concerning deemed
    export controls, as needed. It also noted that NOAA will canvass its other line
    offices to determine whether additional efforts need to be taken to ensure that
    technical information or know-how released to foreign nationals is in
    compliance with federal export licensing requirements. NOAA also pointed out
    that implementation of any export control policies and procedures would be
    predicated upon clarifications to the EAR by BXA, including whether a facility
    is an “appropriate research facility.” As indicated earlier, BXA reported to us
    that it tried to engage NOAA in a discussion on deemed export controls but
    NOAA did not pursue the opportunity. Therefore, we would strongly
    encourage NOAA to contact BXA to discuss deemed export regulations and
    their potential applicability to NOAA. NOAA actions have not fully met the
    intent of our recommendations.

    Recommendation for the International Trade Administration and the
    Bureau of Export Administration

    Recommendation: Determine whether the International Trade
    Association (ITA) or BXA is the appropriate Commerce organization to
    take the lead on CFIUS.

              Status: BXA and the International Trade Administration agree that the
    Commerce responsibility for coordinating CFIUS matters should continue to
    reside in ITA, because neither party believes that a transfer of administrative
    responsibilities would enhance the effectiveness of Commerce’s CFIUS review
    process. However, neither agency could provide a justification as to why the
    ITA is the more appropriate Commerce organization to take the lead on CFIUS.
    Regardless, the two bureaus agreed to work closely together, as well as with
    other interested departmental units, to ensure that all of the CFIUS cases are
    reviewed thoroughly. BXA and ITA actions meet the intent of the Commerce
    OIG recommendation.

Status of the Defense OIG Report No. D-2000-110, “Export
  Licensing at DoD Research Facilities,” March 24, 2000
    Recommendation: Coordinate with the Departments of Commerce and
    State to develop guidance regarding when a visit or assignment of a foreign
    national to a Defense facility requires a deemed export license.

             Status: The Director, Defense Research and Engineering, is working
    with the DTRA to coordinate with the Departments of Commerce and State to
    develop guidance regarding when a visit or assignment of a foreign national to a
    Defense research facility requires a deemed export license. Anticipated
    completion date is May 15, 2001.



                                        44
Recommendation: Revise DoD Directive 2040.2, “International Transfers
of Technology, Goods, Services, and Munitions,” and DoD
Directive 5230.20, “Visits, Assignments, and Exchanges of Foreign
Nationals,” to clearly state policies, procedures, and responsibilities of DoD
and Military Department hosts for determining whether a deemed export
license is required when a foreign national visits a Defense facility.

         Status: A report from the Office of the Under Secretary of
Defense (Policy) on the status of this corrective action was due February 12,
2001; however, as of March 23, 2001, that report has not been received.

Recommendation: Establish a focal point at each Defense research facility
to determine whether a deemed export license is required when a foreign
national visits the facility.
         Status: When export control program guidance has been fully
developed, the Director, Defense Research and Engineering, will develop a
memorandum directing each Defense research facility to appoint a focal point
for deemed export license determinations and direct the use of the guidance
document to be developed, as described below. Anticipated completion date is
July 31, 2001.

Recommendation: Develop an export control program document containing
procedures for determining if technology or commodities at Defense
research facilities can be exported, with or without a license, including
circumstances that may constitute exemptions from requirements of the
Export Administration Regulations or the International Traffic in Arms.

          Status: The Director, Defense Research and Engineering, is working
with DTRA to develop an export control program document containing
procedures for determining whether technology or commodities at Defense
research facilities can be exported to foreign countries, with or without a
license. Guidance developed jointly with the Departments of Commerce and
State will be included. The document is to be coordinated with the Office of the
Under Secretary of Defense (Policy) and Service representatives prior to
submission for publication. Anticipated completion date is July 13, 2001.

Recommendation: Mandate training requirements for personnel at Defense
research facilities on the deemed export licensing requirements of the
Export Administration Regulations and the International Traffic in Arms
Regulations.

         Status: The Director, Defense Research and Engineering, has been
working with the Office of the Assistant Secretary of Defense for Command,
Control, Communications, and Intelligence to develop a process to improve
counterintelligence support to DoD research facilities. The process includes
development of Counterintelligence Support Plans at each facility. Each
Counterintelligence Support Plans will include a requirement for threat
awareness training for all personnel at these facilities. The Director, Defense
Research and Engineering, will work with the Office of the Assistant Secretary
of Defense for Command, Control, Communications, and Intelligence to ensure
                                   45
     that the training addressed in the Counterintelligence Support Plans includes
     deemed export licensing requirements and that deemed export licensing is
     addressed in the implementing regulation for DoD Directive 5230.39,
     “Research and Technology Protection Within the Defense Department,”
     currently in draft. No estimated date of completion was provided.

     Recommendation: The Deputy Under Secretary of Defense (International
     and Commercial Programs) rescind the 1994 policy memorandum
     “Implementing Arrangements to Research and Development Umbrella
     Agreements,” and revise DoD Instruction 2015.4 “Mutual Weapons
     Development Data Exchange Program and Defense Development Exchange
     Program,” to delegate authority to the Military Departments for
     coordinating data exchange agreement annexes with the Department of
     Commerce.
               Status: In November 2000, a Statement of Principles between the DoD
     and Commerce was signed. The Statement concerns the consultation of
     acquisition, technology and logistics-related international agreements, including
     Data Exchange Annexes and Information Exchange Annexes, between both
     Departments. A December 13, 2000, memorandum from the Office of the
     Under Secretary of Defense (Acquisition, Technology, and Logistics) requires
     the Military Departments to transmit all draft Data Exchange Annexes or
     Information Exchange Annexes to Commerce for review prior to signature. The
     Director, International Cooperation, from the Office of the Under Secretary of
     Defense (Acquisition, Technology, and Logistics), has said that his office was
     planning to update the processes in DoD Directive 2015.4. No estimated date
     of completion was provided.

     Recommendation: Army, Navy, and Air Force update their guidance to
     delineate clear procedures for coordinating Data Exchange Annexes with
     Commerce.

              Status: The three Services have agreed to update their respective
     guidance, upon the revision of DoD Directive 2015.4. Action is awaiting the
     above revision.

Status of the Energy OIG Report No. 0465, “Inspection of the
  Department of Energy’s Export License Process for
  Foreign National Visits and Assignments,” March 2000
     Corrective actions for two of the eight recommendations in the March 2000
     report were completed and the recommendations were closed.
     Six recommendations are currently open pending issuance of a Department of
     Energy order regarding foreign visits and assignments. When issued, the
     Energy OIG will assess the responsiveness of the order to the recommendations
     and determine whether the remaining recommendations should be closed.



                                        46
Recommendation: The Department of Energy should ensure that senior
Energy officials work with senior Commerce officials to assure clear,
concise, and reliable guidance is obtained in a timely manner from
Commerce regarding the circumstances under which a foreign national’s
visit or assignment to an Energy site would require an export license.

          Status: The Department of Energy reported that on April 20, 2000,
guidance on “Deemed Exports” was published and submitted to Department of
Energy elements and that this guidance was reviewed by the Field Management
Council and approved by the Deputy Secretary. The guidance explains what a
“deemed export” is, when a “deemed export” requires an export license, and
how a “deemed export” can occur. The guidance also provides directions for
technical reviews to occur by facility individuals familiar with technology,
equipment, or material involved and with applicable export control regulations.
Based upon the Department of Energy’s actions, the recommendation was
closed.

Recommendation: The Department of Energy should ensure that a
proposed revision of the Energy Notice concerning unclassified foreign visits
and assignments include the principal roles and responsibilities for hosts of
foreign national visitors and assignees.

          Status: The Department of Energy reported that the recommendation
is consistent with the current and ongoing Energy initiative to update and clarify
foreign visit and assignment policy. The Department of Energy further reported
that the new draft Department of Energy (DOE) Order 142.X,
“UNCLASSIFIED VISITS AND ASSIGNMENTS BY FOREIGN
NATIONALS,” includes the principal roles and responsibilities for hosts of
foreign national visitors and assignees. The recommendation remains open
pending issuance of the DOE Order.

Recommendation: The Department of Energy include a requirement for
Energy and Energy contractor officials to enter required foreign national
visit and assignment information in the Foreign Access Records
Management System, or a designated central data base, in a complete and
timely manner.

         Status: The Department of Energy reported that a new Energy-wide
information system, the Foreign Access Centralized Tracking System, has been
developed and implemented. The Department of Energy further advised that
draft DOE Order 142.X includes a requirement for Energy sites to enter
required foreign national visit and assignment information into Foreign Access
Centralized Tracking System, in a complete and timely manner. The
recommendation remains open pending issuance of the DOE Order.

Recommendation: The Manager of the Department of Energy’s Oak Ridge
Operations Office should ensure that requests for foreign national visits and
assignments at the Oak Ridge site are reviewed by the Y-12 National
Security Program Office to assist in identifying those foreign nationals who
may require an export license in conjunction with the visit or assignment.

                                    47
          Status: The Department of Energy reported that to ensure that requests
for foreign national visits and assignments at the Oak Ridge National Laboratory
receive appropriate export license consideration, Oak Ridge National Laboratory
has initiated a system of reviews. Under this system, requests are reviewed by
five separate disciplines (Cyber Security, Export Control, Classification,
Counterintelligence, and Security). In addition, requests associated with
concerns are referred for resolution to the Non-citizen Access Review
Committee. The Department of Energy further reported that while each of these
reviews can involve National Security Program Office, the Oak Ridge National
Laboratory Export Control Office is responsible for referring requests to
National Security Program Office as necessary. Based on the actions taken by
the Oak Ridge Manager, the recommendation was closed.

Recommendation: The Department of Energy should ensure that the
requirements in the revised Energy Notice for unclassified foreign national
visits and assignments are clearly identified and assigned to responsible
officials or organizations.

         Status: The Department of Energy reported that draft DOE
Order 142.X includes clear identification of requirements and assignments to
responsible officials or organizations. The recommendation remains open
pending issuance of the DOE Order.

Recommendation: The Department of Energy should ensure that guidance
issued by the Office of Nuclear Transfer and Supplier Policy to advise hosts
of their responsibilities regarding foreign nationals includes the appropriate
level of oversight to be provided by the host during the period of the visit or
assignment.

          Status: The Department of Energy reported that draft DOE
Order 142.X includes the principal roles and responsibilities for hosts of foreign
national visitors and assignees. The recommendation remains open pending the
issuance of the DOE Order.

Recommendation: The Department of Energy should revise the Energy
policy regarding foreign national visits and assignments to ensure that
consistent information is being maintained by Energy sites regarding
foreign nationals visiting or assigned to work at the site.

        Status: The Department of Energy reported that draft DOE
Order 142.X requires development of consistent information and input into the
Foreign Access Centralized Tracking System. Actions are underway to
implement standard templates to upload historical information from the
Department of Energy sites’ legacy systems into the Foreign Access Centralized
Tracking System. The recommendation remains open pending the issuance of
the DOE Order.

Recommendation: The Department of Energy should require that all
Energy sites having foreign national visitors or assignees enter information
regarding the visits or assignments into Foreign Access Records
Management System, or a designated central Energy database.
                                    48
              Status: The Department of Energy reported that the Foreign Access
     Centralized Tracking System has been developed and implemented and that draft
     DOE Order 142.X includes the requirement for all sites to enter required
     foreign national visit and assignment information into the Foreign Access
     Centralized Tracking System, in a complete and timely manner. The
     recommendation remains open pending the issuance of the DOE Order.

Status of State OIG Report No. 00-CI-008, “Department of
  State Controls Over the Transfer of Militarily Sensitive
  Technologies to Foreign Nationals from Countries and
  Entities of Concern,” March 2000
     Recommendation: The Office of Defense Trade Controls should improve its
     tracking capabilities for foreign nationals on export munitions licenses to
     prevent the transfer of sensitive data to countries of concern. DTC should use
     its existing database to track foreign nationals listed on export munitions
     licenses, including, at a minimum, the name and nationality of the individual.

               Status: The Office of Defense Trade Controls reported that it has
     established a computer coding capability to track foreign nationals from
     countries of concern whose U.S. defense industry employment has been
     authorized by a munitions license. Based on the action, the recommendation
     was closed.

     Recommendation: The Office of Defense Trade Controls should highlight in
     its outreach programs compliance with existing licensing requirements for the
     transfer of information to foreign nationals.

               Status: The Office of Defense Trade Controls reported that it will
     continue to highlight in its outreach programs the existing requirements of the
     International Traffic in Arms Regulations with respect to the transfer of
     information to foreign nationals. However, the Office of Defense Trade
     Controls noted that its request for more staff and resources for outreach efforts
     were not granted last year. As of March 23, 2001, the recommendation
     remained open pending receipt of documentation on outreach programs
     highlighting compliance with existing licensing requirements for the transfer of
     information to foreign nationals.

     Recommendation: The Office of Defense Trade Controls should develop a
     plan of action, based on an analysis of the effectiveness of the first year
     program, for the number and scope of future reviews including additional
     personnel and resources.

              Status: The Office of Defense Trade Controls reported that it has
     agreed to develop such a plan of action. The implementation of the plan is
     dependent upon additional personnel and resources. As of March 23, 2001, the
     recommendation remained open pending receipt of the action plan.


                                         49
